<html>
<title> - H.R. 1943, LEGISLATION AMENDING THE FAIR LABOR STANDARDS ACT TO PERMIT CERTAIN YOUTH TO PERFORM CERTAIN SPECIFIED WORK</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





    H.R. 1943, LEGISLATION AMENDING THE FAIR LABOR STANDARDS ACT TO 
        PERMIT CERTAIN YOUTH TO PERFORM CERTAIN SPECIFIED WORK

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            October 8, 2003

                               __________

                           Serial No. 108-37

                               __________

  Printed for the use of the Committee on Education and the Workforce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

90-142              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                   CHARLIE NORWOOD, Georgia, Chairman

Judy Biggert, Illinois, Vice         Major R. Owens, New York
    Chairman                         Dennis J. Kucinich, Ohio
Cass Ballenger, North Carolina       Lynn C. Woolsey, California
Peter Hoekstra, Michigan             Denise L. Majette, Georgia
Johnny Isakson, Georgia              Donald M. Payne, New Jersey
Ric Keller, Florida                  Timothy H. Bishop, New York
John Kline, Minnesota                George Miller, California, ex 
Marsha Blackburn, Tennessee              officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 8, 2003..................................     1

Statement of Members:
    Norwood, Hon. Charlie, Chairman, Subcommittee on Workforce 
      Protections, Committee on Education and the Workforce......     2
        Prepared statement of....................................     3
    Owens, Hon. Major R., Ranking Member, Subcommittee on 
      Workforce Protections, Committee on Education and the 
      Workforce..................................................     4
    Pitts, Hon. Joseph R., a Representative in Congress from the 
      State of Pennsylvania......................................     6
        Prepared statement of....................................     8
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana...........................................     9
        Prepared statement of....................................    11

Statement of Witnesses:
    Blank, Christ K., Chairman, Old Order Amish Steering 
      Committee - National, Kinzers, Pennsylvania................    12
        Prepared statement of....................................    14
    Burkholder, William, C.B. Hardwood Lumber Company, 
      Centerville, Pennsylvania..................................    19
        Prepared statement of....................................    20
    Clark, Nicholas, Esq., Assistant General Counsel, United Food 
      and Commercial Workers, AFL-CIO, Washington, DC............    16
        Prepared statement of....................................    18

Additional materials supplied:
    Bontrager, Herman, Secretary/Treasurer, National Committee 
      for Amish Religious Freedom................................    35

 
H.R. 1943, LEGISLATION AMENDING THE FAIR LABOR STANDARDS ACT TO PERMIT 
            CERTAIN YOUTH TO PERFORM CERTAIN SPECIFIED WORK

                              ----------                              


                            October 8, 2003

                     U.S. House of Representatives

                  Subcommittee on Workforce Protections

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:35 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Charlie Norwood 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Norwood, Biggert, Owens, Kucinich, 
Majette, and Payne.
    Staff present: Jim Paretti, Professional Staff Member; 
Donald McIntosh, Staff Assistant; Ed Gilroy, Director of 
Workforce Policy; Loren Sweatt, Professional Staff Member; 
Chris Jacobs, Staff Assistant; Kevin Frank, Professional Staff 
Member; Deborah L. Samantar, Committee Clerk/Intern 
Coordinator. Peter Rutledge, Minority Senior Legislative 
Associate/Labor; Maria Cuprill, Minority Legislative Associate/
Labor; Margo Hennigan, Minority Legislative Assistant/Labor.
    Chairman Norwood. A quorum being present, the Subcommittee 
on Workforce Protections of the Committee on Education and the 
Workforce will come to order.
    We are meeting here today to hear testimony on H.R. 1943, 
legislation amending the Fair Labor Standards Act to permit 
Amish youth to perform certain specified work. Under Committee 
Rule 12(b), opening statements are limited to the Chairman and 
the Ranking Minority Member of this Subcommittee. Therefore, if 
other Members have statements, they may be included in the 
hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.
    In keeping with the tenets of their faith, our witnesses 
from the Amish community have asked that they not be 
photographed or videotaped during our hearing today. Out of 
respect for these beliefs, today's hearings will not be 
broadcast over the Internet, and we have arranged with 
Subcommittee staff to ensure that our witnesses are not 
videotaped or photographed this morning.
    I would ask and expect the same cooperation of any 
journalist present today that witnesses Blank and Burkholder 
not be photographed or videotaped during this morning's 
hearing. The Subcommittee greatly appreciates your cooperation.

 STATEMENT OF HON. CHARLIE NORWOOD, CHAIRMAN, SUBCOMMITTEE ON 
WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Good morning. The legislation before us today, H.R. 1943, 
would amend the Fair Labor Standards Act of 1938 to provide 
that certain youth whose religious faith and beliefs dictate 
that they learn by doing are afforded an opportunity to do so, 
and that the Federal Government, however well- meaning, does 
not endanger the belief and culture of these young people and 
their families.
    Specifically, we will hear today about how the Fair Labor 
Standards Act provisions regarding child labor threaten the way 
of life of Amish youth. Now some of my colleagues may know, and 
our witnesses today will certainly explain, that in the Amish 
tradition, formal education ends at the eighth grade. 
Thereafter, with the support of their families and communities, 
Amish youth--Amish young people are expected to further their 
education through hands-on training or learning by doing.
    Now for many years, that training and learning came in 
agriculture and family farming. The Fair Labor Standards Act 
recognizes that and provides fairly broad exceptions for youth 
working in agriculture and on family farms. But in recent 
years, with the decline of agriculture, more and more Amish 
families have turned to carpentry and woodworking as a source 
of their employment and as a source of training for their young 
people.
    And there is where the FLSA has presented obstacles by 
prohibiting 14- to 18-year-olds from working in such 
facilities. In the recent past, several Amish sawmills in 
Pennsylvania, Ohio, and other states have faced thousands of 
dollars of fines for training their young people in accordance 
with their beliefs. Now many of these folks may never have 
known that these prohibitions even existed, but now that they 
are aware, they are justifiably concerned that these laws, 
however well-intentioned, truly jeopardize their way of life.
    H.R. 1943 seeks to address this threat by making narrow, 
common sense changes to the FLSA while maintaining necessary 
workplace safety and health protections. As some of my 
colleagues will remember, this is not the first time the 
Subcommittee has addressed this matter. Indeed, in both the 
106th and 105th Congresses, we were able to pass this 
legislation through Subcommittee, Full Committee and on the 
House Floor with strong bipartisan support.
    Unfortunately, in both of these Congresses, our colleagues 
in the other body did not take action on this measure. I raise 
this point today not only to refresh our collective memories 
but also to express my hope that we might work in a similar 
bipartisan fashion in moving this bill through the legislative 
process this year.
    I also would say that because this legislation has been 
through the Committee process several times in years past, it 
has been refined and perfected to address concerns that were 
raised in earlier considerations. For example, the bill 
includes numerous provisions to protect the safety of Amish 
youth who work in these woodworking facilities. Requirements 
that a minor working in these facilities be supervised by an 
adult relative or other sect member, requirements that minors 
are adequately protected by appropriate workplace barriers or 
distance from machinery, and a strict prohibition on any minor 
operating any power woodworking machinery.
    Finally, I know in years past there has been concern that 
this legislation may raise Constitutional concerns. Again, we 
have worked to address those, and I am confident that the end 
product before us today, which is a narrowly tailored, common 
sense measure, passes Constitutional muster.
    [The prepared statement of Chairman Norwood follows:]

Statement of Hon. Charlie Norwood, Chairman, Subcommittee on Workforce 
         Protections, Committee on Education and the Workforce

    Good Morning.
    The legislation before us today, H.R. 1943, would amend the Fair 
Labor Standards Act of 1938 to provide that certain youth whose 
religious faith and beliefs dictate that they ``learn by doing'' are 
afforded an opportunity to do so, and that the federal government--
however well-meaning--does not endanger the belief and culture of these 
young people and their families.
    Specifically, we will hear today about how the Fair Labor Standards 
Act's provisions regarding child labor threaten the way of life of 
Amish youth. Now some of my colleagues may know, and our witnesses 
today will certainly explain, that in the Amish tradition, formal 
education ends at the eighth grade. Thereafter, with the support of 
their families and communities, Amish young people are expected to 
further their education through hands-on training or ``learning by 
doing.''
    Now for many years that training and learning came in agriculture 
and family farming. The Fair Labor Standards Act recognizes that, and 
provides fairly broad exceptions for youth working in agriculture and 
on family farms. But in recent years, with the decline of agriculture, 
more and more Amish families have turned to carpentry and woodworking 
as a source of employment, and as a source of training for their young 
people. And there is where the FLSA has presented obstacles by 
prohibiting 14- to 18- year olds from working in such facilities.
    In the recent past, several Amish sawmills in Pennsylvania, Ohio 
and other states have faced thousands of dollars of fines for training 
their young people in accordance with their beliefs. Now many of these 
folks may never have known that these prohibitions even existed--but 
now that they are aware, they are justifiably concerned that these 
laws--however well-intended--truly jeopardize their way of life.
    H.R. 1943 seeks to address this threat by making narrow, common-
sense changes to the FLSA, while maintaining necessary workplace safety 
and health protections.
    As some of my colleagues will remember, this is not the first time 
this Subcommittee has addressed this matter. Indeed, in both the 106th 
and 105th Congresses, we were able to pass this legislation through 
Subcommittee, Full Committee, and on the House Floor, with strong 
bipartisan support. Unfortunately, in both of those Congresses, our 
colleagues in the other body did not take action on the measure.
    I raise this point today not only to refresh our collective 
memories--but also to express my hope that we might work in a similar 
bipartisan fashion in moving this bill through the legislative process 
this year.
    I also would say that because this legislation has been through the 
committee process several times in years past, it has been refined and 
perfected to address concerns that were raised in earlier 
consideration.
    For example, the bill includes numerous provisions to protect the 
safety of Amish youth who work in these wood working facilities: 
requirements that a minor working in these facilities be supervised by 
an adult relative or other sect member; requirements that minors are 
adequately protected by appropriate workplace barriers or distance from 
machinery; and a strict prohibition on any minor operating any power 
woodworking machinery.
    Finally, I know in years past there has been concern that this 
legislation may raise constitutional concerns. Again, we have worked to 
address those, and I am confident that the end product before us today, 
which is a narrowly-tailored, common-sense measure, passes 
constitutional muster.
    We are honored to have with us the sponsor of this legislation, our 
colleagues, Mr. Pitts of Pennsylvania and Mr. Souder of Indiana, as 
well as representatives of the Amish community, who will explain both 
the role of their faith, and the difficulties they have encountered 
under the Fair Labor Standards Act far better than I could hope to do. 
I also look forward to hearing the testimony of our Minority's witness, 
Mr. Clark. I welcome each of you, and with that would yield to my 
distinguished colleague from New York for any opening remarks he would 
care to make.
                                 ______
                                 
    We are honored to have with us the sponsors of this 
legislation, our colleagues, Mr. Pitts of Pennsylvania and Mr. 
Souder of Indiana, as well as representatives of the Amish 
community who will explain both the role of their faith and the 
difficulties they have encountered under the Fair Labor 
Standards Act far better than I could ever hope to do.
    I also look forward to hearing the testimony of our 
minority witness, Mr. Clark. I welcome each of you, and with 
that would yield to my distinguished colleague from New York 
for any opening remarks he might wish to make. Mr. Owens?

STATEMENT OF HON. MAJOR R. OWENS, RANKING MEMBER, SUBCOMMITTEE 
   ON WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION AND THE 
                           WORKFORCE

    Mr. Owens. Thank you, Mr. Chairman. Let me begin by saying 
that I am gratified to see that Mr. Pitts has included the 1998 
amendments to his original bill. The amendments provide 
additional protection to minors working in these most dangerous 
settings. However, while these changes improve the bill, they 
do not perfect it. H.R. 1943 permits children as young as 14 to 
work in one of the most hazardous industries in the country. 
The occupational fatality rate in the lumber and wood products 
industry is five times higher--five times higher--than the 
national average.
    According to the July 2003 National Institute of 
Occupational Safety and Health Alert, which is entitled 
``Preventing Deaths, Injuries, and Illnesses of Young 
Workers,'' an average of 67 young workers under the age of 18 
died from work-related injuries each year during 1992 to 2000.
    The report goes on to say that more than 30 percent of all 
fatal injuries to young workers occurred in family businesses, 
and that in 1998 an estimated 77,000 young workers required 
treatment in hospital emergency rooms. However, information 
from national surveys also indicates that only one-third of 
work-related injuries are seen in emergency rooms. Therefore, 
it is likely that nearly 230,000 teens suffered work-related 
injuries that year.
    This report also gives 11 cases as examples of the risks 
young workers face while at work in a number of industries. 
Among these they cite the case of the 17-year-old worker 
crushed to death at a salvage lumber business when the forklift 
he was operating overturned.
    Sawmills are extremely hazardous work environments. Workers 
have been killed when loads fell off of forklifts. They have 
been suffocated by sawdust. They have been killed as a result 
of boards being kicked out of saws.
    Mr. Burkholder, I still remember your 1998 testimony on 
behalf of this legislation when you told us how you lost the 
tip of your finger during a moment of inattention. This 
happened to you, an adult. What could possibly have happened to 
a child of 14 years? I cringe to think of children working in 
that kind of dangerous environment.
    Inexperience, smaller size, and lack of maturity all serve 
to make the potential risks faced by minors even greater than 
they are for adults. Governments make an assumption that 
children have to have special protections, and that is 
something that is usually not challenged, the government's 
prerogative to try to protect children. I do not think it is 
reasonable to expect a 14-year-old to maintain a kind of 
continuous safety concern that we would expect of adults. In 
this industry, a moment of inattention can be fatal.
    The child labor laws serve two vital purposes. First, the 
child labor laws are intended to ensure that children are not 
employed in circumstances that are unduly hazardous to their 
health. I do not mean to imply that the proponents of this 
legislation are indifferent to the health and safety of their 
children. I understand the concern that children be employed in 
occupations common to the Amish community. However, to employ 
children in an industry where the occupational fatality and 
injury rates are as high as those in this particular industry 
are, in my view, just asking for trouble.
    The second purpose of the child labor laws is to protect 
the income of workers by ensuring that adults do not have to 
compete for their employment with children who do not yet have 
the burden of supporting themselves. This bill flies in the 
face of that important public policy. Further, this bill 
creates an exception whereby an employer may employ Amish youth 
but no others. Creating an incentive for employers to hire 
Amish youth over workers of other religious faiths not only 
raises Constitutional questions, but also places the Department 
of Labor in the position of having to document a worker's 
religion. I do not think that kind of policy is either wise or 
fair.
    I yield the balance of my time, Mr. Chairman.
    Chairman Norwood. Thank you, Mr. Owens. It is now my honor 
to introduce to the Subcommittee two of our esteemed colleagues 
present with us today. On behalf of the Members of the 
Subcommittee and myself, I want to thank them for being here as 
well, thank each of our witnesses on our panel today for 
testifying on this very important issue.
    All of us know, but I'd like to introduce, the Honorable 
Joseph R. Pitts, who serves the 16th Congressional District of 
Pennsylvania. Mr. Pitts. The Honorable Mark Souder, who 
represents the Third Congressional District of Indiana. Mr. 
Souder, we're delighted to have you. Mr. Christ K. Blank, who 
is Chairman of the Older Order Amish Steering Committee, and 
he's here from Pennsylvania. Nicholas Clark, who is Assistant 
General Counsel, United Food and Commercial Workers of AFL-CIO. 
Welcome, Mr. Clark. And Mr. William Burkholder, who has C.B. 
Hardwood Lumber Company in Pennsylvania.
    Gentlemen, we generally ask our witnesses to stay at about 
five minutes. There is a clock or a red/yellow/green light in 
front of you, and I'll ask you to try to stay within the five 
minutes. I know some of you have come a long way, and I hate to 
cut witnesses off. So work with me if you would and try to stay 
within that timeframe.
    With that, I'd like to recognize Mr. Pitts.

STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this important hearing. I'll submit my entire statement for the 
record and also testimony from Mr. Herman Bontrager, Secretary-
Treasurer of the National Committee for Amish Religious 
Freedom, for the record.
    Mr. Chairman, I appreciate the opportunity to testify on 
the cultural and employment needs of the Amish youth.
    This is a critical issue for the Amish, who reside in 33 
states and in 115 congressional districts. My home state of 
Pennsylvania ranks first in the nation in the total number of 
Amish adherents, with over 43,500, and more than half live in 
my district, the 16th Congressional District.
    People around the world know of the Old Order Amish as a 
people who till their land and direct their lives with faith, 
simplicity, and discipline.
    Traditionally, Amish communities are centered around the 
family farm, which requires participation from the whole 
family. While caring for crops and animals, Amish parents show 
their children how to make a living without exposure to outside 
influences that contradict their beliefs.
    However, a high growth rate and the soaring price of 
farmland have forced the Amish to look for alternatives to 
farming. Now Amish can be found in small businesses making raw 
lumber, clocks, wagons, cabinetry, and quilts. Therefore, as 
they did on the family farm, the Amish now wish to have their 
youth work with them in these vocational settings. Typically 
the youth learn a trade after the completion of Amish school, 
or eighth grade.
    The Amish view this work as part of their schooling, since 
they often accompany a parent to the workplace. And these 
apprenticeships are known as ``learning by doing.''
    Unfortunately, these small, Amish-owned businesses have 
received costly fines, ranging up to $20,000, from the 
Department of Labor for having their youth under the age of 18 
work alongside their fathers and uncles, even in family 
businesses.
    Mr. Chairman, a few years ago, an Amish businessman in my 
district was fined $10,000 for having his own child in the 
front office of his business. And this 15-year-old teenager was 
simply learning to use the cash register alongside her father--
she was far from harm's way. But there was a machine in the 
back of the shop.
    Actions such as these by the Department of Labor have 
severely threatened the lifestyle and religion of this 
respected and humble community. Amish youth are already exempt 
from state laws making school attendance mandatory when they 
have finished the eighth grade and are 14 years old, and they 
are permitted to work more hours than would normally be the 
case and work during traditional school hours. Additional, 
minors working in agriculture are totally exempt from child 
labor laws.
    The Amish expect diligence, responsibility, and respect 
from their Community Services Block Grant. They do not 
contribute to the social ills of society. They do not accept 
any assistance from any government programs. Our government 
should not interfere with this humble community.
    Some of my colleagues, along with our Amish constituents, 
have met with the Department of Labor over the past several 
years to try to find a solution to the problem. In fact, a 
group of officials from the Department of Labor joined me in 
touring two Amish-owned woodworking businesses this May to 
observe the conditions under which Amish youth would be allowed 
to work if H.R. 1943 is enacted.
    Unfortunately, the Department of Labor has repeatedly 
indicated that there is no regulatory administrative solution, 
and so we have to deal with this through legislation.
    The Amish have a very unique situation. They complete their 
formal schooling at the end of eighth grade. They are 
prohibited by their religious beliefs from attending school 
beyond this point. As such, they do not have the benefit of or 
access to shop class or ``vo-tech'' programs that many of our 
youth have.
    We have a responsibility to evaluate the Amish in this 
unique light. And this narrow legislation will only allow young 
adults supervised by an adult relative or an adult member of 
the same religious sect to work in places of business where 
machinery is used to process wood products.
    It requires young adults have adult supervision. It 
prohibits them from operating or assisting in the operation of 
power-driven woodworking machinery, and as a father and 
grandfather myself, I can assure you I have no desire to put 
any young person in harm's way. So my legislation provides key 
safety provisions for the Amish youth that Mr. Owens mentioned 
that we accepted his amendments a couple of years ago.
    The youth must be protected from wood particles or flying 
debris, maintain a sufficient distance from machinery in 
operation, and required to use personal protective equipment to 
prevent exposure to excessive levels of noise and sawdust.
    Mr. Chairman, many communities, like Lancaster County, of 
my district, greatly appreciate the heritage and work ethic of 
the Amish. We wish to keep them as part of our communities.
    However, if the Amish continue to be fined by the Federal 
Government, they could be driven out of our communities, and 
their strong heritage will be undermined by governmental 
interference.
    So in conclusion, let me ask a simple question: Is it more 
dangerous to be in a woodworking shop--150 feet away from any 
power equipment, sweeping sawdust, stacking lumber, working on 
a cash register--than it is to have the Federal Government 
destroy the ability of a religious community to teach its 
children a work ethic that is culturally appropriate?
    I urge this Subcommittee to help protect the Amish 
heritage.
    Mr. Chairman, again, thank you for inviting us to present 
testimony, and I'd be happy to answer any questions. I'm sure 
Mr. Blank and Mr. Burkholder, who join us, could give specific 
details regarding this issue.
    Thank you.
    [The prepared statement of Mr. Pitts follows:]

 Statement of Hon. Joseph R. Pitts, a Representative in Congress from 
                       the State of Pennsylvania

    Thank you, Mr. Chairman for holding this important hearing today. I 
appreciate the opportunity to testify on the cultural and employment 
needs of Amish youth.
    This is a critical issue for the Amish, who reside in at least 33 
states and 115 Congressional districts. My home state of Pennsylvania 
ranks first in the nation in the total number of Amish adherents, with 
over 43,500. More than half, 23,890, live in the 16th Congressional 
District, which I represent.
    People around the world know of the Old Order Amish as a people who 
till their land and direct their lives with faith, simplicity, and 
discipline.
    Traditionally, Amish communities are centered around the family 
farm, which requires participation from the whole family. While caring 
for crops and animals, Amish parents show their children how to make a 
living without exposure to outside influences that contradict their 
beliefs.
    However, a high growth rate and the soaring price of farmland have 
forced the Amish to look for alternatives to farming. Now, Amish can be 
found in small businesses making raw lumber, clocks, wagons, cabinetry, 
and quilts.
    Therefore, as they did on the family farm, the Amish now wish to 
have their youth work with them in these vocational settings. Typically 
the youth will learn a trade after the completion of Amish school, or 
eighth grade.
    The Amish view this work as part of their schooling; since they 
often accompany a parent to the workplace. These apprenticeships are 
known as ``learning by doing.''
    Unfortunately, these small, Amish-owned businesses have received 
costly fines, ranging up to $20,000, from the Department of Labor for 
having their youth under the age of 18 work alongside their fathers and 
uncles, even in family businesses.
    Mr. Chairman, a few years ago, an Amish businessman in my 
Congressional district was fined $10,000 for having his own child in 
the front office of his business. This teenager was simply learning to 
use the cash register alongside her father--she was far from harm's 
way.
    Actions such as these by the Department of Labor have severely 
threatened the lifestyle and religion of this respected and humble 
community.
    Amish youth are already exempt from state laws making school 
attendance mandatory when they have finished eighth grade and are 14 
years old, and they are permitted to work more hours than would 
normally be the case and to work during traditional school hours. 
Additionally, minors working in agriculture are exempt from child labor 
laws altogether.
    The Amish expect diligence, responsibility, and respect from their 
youth. They do not contribute to the social ills of our society, and 
they do not accept any assistance from government programs.
    Our government should not interfere with this humble community.
    Some of my colleagues, along with our Amish constituents, have met 
with Department of Labor officials over the past several years to try 
and find a solution to this problem.
    In fact, a group of officials from the Department of Labor joined 
me in touring two Amish-owned woodworking businesses this May to 
observe the conditions under which Amish youth would be allowed to work 
if H.R. 1943 is enacted.
    Unfortunately, the Department of Labor has repeatedly indicated 
that a regulatory or administrative solution is not possible, and so we 
have been forced to pursue a legislative solution.
    The Amish have a very unique situation. They complete their formal 
schooling at the end of the eighth grade, and are prohibited by their 
religious beliefs from attending school beyond this point. As such, 
they do not have the benefit of or access to ``shop'' class or vo-tech 
programs that our youth have.
    We have a responsibility to evaluate the Amish in this unique 
light.
    That is why I, along with numerous other Members, introduced H.R. 
4257, legislation to address the employment needs of Amish youth, on 
July 16, 1998. It passed the House by voice vote on September 28, 1998; 
however, the Senate did not move on this legislation before the end of 
the 105th Congress.
    I then reintroduced the bill as H.R. 221 on January 6, 1999. The 
bill passed the House by voice vote on March 2, 1999, but, again, the 
Senate did not take action before the close of the 106th Congress.
    The legislation was reintroduced on July 25, 2001 as H.R. 2639 in 
the 107th Congress; however, without a commitment from the Senate to 
push companion legislation, H.R. 2639 was not brought to the House 
floor for a vote.
    It is with great hope that I, along with Sen. Arlen Specter, 
reintroduced this legislation in the 108th Congress on May 1, 2003. 
Sen. Specter's bill, S. 974, is currently before the Committee on 
Health, Education, Labor, and Pensions.
    This narrow legislation will only allow young adults supervised by 
an adult relative or by an adult member of the same religious sect to 
work in places of businesses where machinery is used to process wood 
products.
    My legislation requires that young adults have adult supervision, 
and it prohibits them from operating or assisting in the operation of a 
power-driven woodworking machine.
    As a father and grandfather myself, I can assure you that I have no 
desire to put any young person in harm's way, and so my legislation 
provides key safety protections for Amish youth.
    The youth must be protected from wood particles or other flying 
debris; maintain a sufficient distance from machinery in operation; and 
are required to use personal protective equipment to prevent exposure 
to excessive levels of noise and saw dust.
    Mr. Chairman, many communities, like Lancaster County, 
Pennsylvania, of my district, greatly appreciate the heritage and work 
ethic of the Amish, and we wish to keep them as a part of our 
communities.
    However, if the Amish continue to be fined by the Federal 
government, they could be driven out of our communities, and their 
strong heritage will be undermined by governmental interference.
    In conclusion, let me ask a simple question:
    Is it more dangerous to be in a woodworking shop--150 feet away 
from any power equipment, sweeping sawdust, stacking lumber, or working 
a cash register--than it is to have the Federal government destroy the 
ability of a religious community to teach its children a work ethic 
that is culturally appropriate?
    I urge this Subcommittee to help protect the Amish heritage.
    Mr. Chairman, thank you for inviting me to this hearing. I'll be 
happy to answer any questions, and I am sure that Mr. Blank and Mr. 
Burkholder, who join us today, can give you specific details regarding 
this issue.
                                 ______
                                 
    Chairman Norwood. Thank you very much, Mr. Pitts.
    Mr. Souder, you are now recognized for five minutes.

STATEMENT OF HON. MARK E. SOUDER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Souder. Thank you. And I ask unanimous consent to put 
my full statement in the record.
    Chairman Norwood. So ordered.
    Mr. Souder. And I have a little bit of an unusual personal 
background. One of my brief moments of fame is I was listed in 
the New York Times crossword puzzle as what Member of Congress 
has Amish roots. My great, great grandpa was one of the first 
Amish settlers in Indiana, in 1846. They came from 
Pennsylvania, walked across to Ohio, into Holmes County, then 
up to Archibald, and then down into Indiana.
    My great grandfather left the Amish faith in about 1880, 
thereabouts, but I still have many relatives in the Amish 
community and grew up in a town surrounded by Amish and 
understand a lot of the problems, and there's lots of confusion 
about what's Amish, what's Mennonite, all the gradations. In my 
home area, for example, in the little town of 700, there are 
five to seven different Mennonite churches and different 
gradations of Amish. For example, the Amish around my home town 
can't marry anybody from the families in many of the towns in 
Pennsylvania because they're more liberal. They have tops on 
their buggies; they allow a pay phone on the porch. I come from 
a very old order Amish area, and then there are gradations 
within the Mennonite faith.
    This only is tied to the Amish, which is a very defined 
subgroup that came out of the Mennonite tradition. Let me deal 
with another question here, and that's understanding the 
geography of this challenge. The Amish basically are located in 
a belt that goes from just west of Philadelphia to the end of 
the fertile land in central Kansas and central Iowa. Pretty 
much if you take U.S. 30, go 14 and 24 around it, you will find 
the Amish belt. Because they don't use modern technology, they 
are limited, because it's heavily work- intensive. They use 
gasoline-powered equipment, kerosene-powered or other types of 
things. Some communities make slight adaptations so they can 
try to live and feed their families. But the options of where 
they can move are limited, given their religious fundamental 
beliefs.
    So you see some pockets in Michigan, some pockets have 
moved up to Minnesota, a few in Southern communities, but they 
have more difficult times when the land is not as fertile as in 
the center of Illinois around Arcola, Illinois or in centers of 
Iowa, Indiana, and Pennsylvania.
    Some go down to Brazil or other nations. It is, if you want 
to take a literal scriptural interpretation, it is hard to find 
a place to go as the suburban growth occurs in this good land 
for them.
    Let me give you an illustration. Why don't they believe in 
pictures? The Bible specifically says, thou shall not have a 
graven image or likeness thereof. They take that literally. The 
church I grew up in, the Apostolic Christian Church, United 
Brethren in Christ, and others for years took that literally. 
But they take the Bible so literal that they believe that a 
picture today would be blasphemous. It would be a likeness 
thereof or something that God would create.
    Their life is literally anchored in this. Because of that, 
their kids are not going in automobiles. It is strange; when 
the Amish hear the things about the dangers to their kids are 
going, man, we don't have our kids getting assassinated on the 
highways out there. They're not working in all kinds of other 
industries where they're put at risk. They have a very simple 
lifestyle. That furthermore, in the protections, and in my area 
I have the tenth-largest but also the second-largest 
settlements of Amish. The land is getting crowded. That 
basically their choices are, with all due respect to the 
Mennonites and United Brethren in Christ, which I currently am, 
their big fear is that their kids are going to become Mennonite 
or that they're going to drift away to these other 
denominations, because in order to get a job, they start having 
to go in vehicles away from their community, they start mixing 
with other people, they start listening to tapes, they start 
watching TV, maybe get a beer over here and there, and the next 
thing you know, they can't keep them in their families. And 
there's only so many times you can divide the farmland.
    In a lot of my areas--and by the way, this is politically 
not the easiest thing to do, because those who are English 
don't necessarily want special advantages to the Amish, and 
they vote, and Amish generally speaking don't vote--but it's a 
question of can they survive? Are we going to give them the 
option to do woodworking, or do they have to leave their faith 
to go get other jobs, eventually get automobiles, eventually go 
to other professions that are far more dangerous? Then quite 
frankly, the apprenticeships that they seek, which are sweeping 
the floors, cleaning the windows, watching their dad and their 
brothers work at the fringes, and where we can have a 
woodworking industry, which is very big in my region and is one 
of the primarily Amish craft things that they are now employed 
with, when they start to go into the housing area and they 
start to do things where they move out of their community where 
the business isn't right there, they'll leave the faith, 
probably half to three-quarters.
    Their only chance really to sustain themselves is on the 
limited agriculture and the others. And I would ask those who 
don't fully understand these communities to understand that 
they're a minority, too, and their minority is fighting for 
their life in America and whether they continue as American 
citizens, and we need to give them some flexibility.
    Thank you.
    [The prepared statement of Mr. Souder follows:]

Statement of Hon. Mark E. Souder, a Representative in Congress from the 
                            State of Indiana

    Mr. Chairman and Members of the Committee, I appreciate this 
opportunity to testify today regarding an issue of significant 
importance to the Amish population in my district--the employment needs 
of Amish youth. My colleague from Pennsylvania, Mr. Pitts, has pursued 
this issue for several years now, and I am grateful to him for his 
dedication. I am hopeful we can find a legislative remedy in this 
Congress to a problem that jeopardizes the culture and religion of the 
Amish people.
    As representatives of Amish constituents, Congressman Pitts and I 
are rarely asked to provide any form of government assistance for this 
group of people. In the issue before us today, the Amish are asking for 
something quite basic to our Constitutional freedoms: religious liberty 
and the ability to live their lives according to their deeply held 
religious convictions. As with many groups of people, religious freedom 
is what brought the Amish to America, and, today it is our 
responsibility to protect this liberty, which is foundational to their 
entire way of life.
    I am not a passive observer on these issues. Not only do I 
represent the 2nd and 10th largest ``old order'' Amish settlements in 
the country (about 40,000 altogether), but I am a direct descendent of 
one of the first Amish settlers in Northeast Indiana. In 1846, my 
great-great grandfather settled in the Hoosier state. While he left the 
faith and culture around the turn of the century, I still have 
relatives who continue to practice the Amish tradition. Furthermore, I 
was raised in a small town--Grabill, Indiana--which is surrounded by 
Amish families. Growing up, I had the unique opportunity to witness 
first-hand the traditions of this religious and cultural community.
    Congressman Pitts first brought the issue before us today to my 
attention in 1997. I have been monitoring it closely ever since. 
Although the Amish in Northeast Indiana have not experienced the degree 
of conflict with federal labor laws as have the people of Pennsylvania 
and Ohio, the federal restrictions on teen labor are still an issue of 
much concern to my constituents. One Amish gentleman from my district 
participated in some of the first meetings we had with the Department 
of Labor under the previous Administration.
    As you may know, the Amish culture places high value on a strong 
work ethic. Idleness and leisure are believed to breed vice, so the 
Amish raise their children at an early age to appreciate hard work. 
Amish children end their formal schooling after the eighth grade to 
participate in vocational training, most often apprenticeship programs 
in such fields as farming and wood working. While child labor laws do 
not apply to farming, they do apply to wood working shops.
    In recent years, farming has become an increasingly difficult 
livelihood for many Amish--unplowed land is difficult to find and 
increasingly expensive, and competing with industrial farms that use 
heavy equipment is overwhelming to small Amish family farms. Many Amish 
families have been forced into corollary industries like arts & crafts, 
woodworking, home building, pallet building, and furniture making. This 
career shift from farming to wood working has led to new regulatory 
compliance violations for businesses employing Amish youth in wood 
working apprentice programs.
    In recent years, several lumber facilities in Pennsylvania were 
heavily fined by the Department of Labor for employing Amish teenagers, 
aged 14-17 years. Some of the cases in which the Labor Department 
assessed fines involved 14- and 15-year-olds who were working in a wood 
shop stacking objects and sweeping floors and were not in close 
proximity to machinery. Upon hearing of these problems, several of my 
colleagues and I met with Labor officials and Amish representatives to 
work out a remedy to this situation. Unfortunately, the Department of 
Labor under the previous Administration told us a regulatory remedy was 
not possible based on current law.
    This impasse is what brings us here today to consider these issues. 
Current law must be clarified in order to continue the Amish tradition 
of providing teenagers with a practical education--one that allows them 
to work alongside their relatives and church family. The bill 
Congressman Pitts has introduced in this Congress, H.R. 1943, would 
allow Amish teenagers to continue to do certain jobs where machinery is 
used to process wood products. I am a cosponsor of this legislation and 
believe it is a fair compromise, representing several years of 
negotiations with the Department of Labor. In the 106th Congress, I was 
a cosponsor of Congressman Pitts'' similar bill, H.R. 221, which passed 
the House of Representatives by unanimous consent.
    Simply put, H.R. 1943 would allow Amish teenagers aged 14 through 
18 to continue to work in woodworking facilities while including sound 
provisions to protect these young workers. As a father of three 
children--two of whom are of working age--I would never advocate for a 
bill placing teenagers in an unduly unsafe work environment. Safety 
provisions have been carefully considered and included in this 
legislation. The bill would require these young workers to be 
supervised by adults who know and care about them. It would also 
prohibit Amish youth from operating power-driven machinery and would 
require these teenagers to be protected from flying debris, excessive 
noise, and sawdust.
    At the same time, this bill will preserve the traditional way of 
life of the Amish, whose youth finish their formal education by the 
eighth grade and then turn to a different style of religious, cultural, 
and ``vocational'' education. This bill would protect a truly 
endangered religion and culture that cannot afford to be trampled on by 
federal micro-management.
    The Amish represent a unique segment of Americans that rely on 
self-sufficiency rather than assistance from government. They are a 
peace-loving people who came to America in the Anabaptist tradition to 
escape government regulation and persecution in order to practice their 
faith without government interference. Today, government bureaucracy is 
threatening the Amish people's very way of life. It is interfering with 
their religious freedom.
    I urge my colleagues on this subcommittee and the larger Committee 
on Education and the Workforce to pass H.R. 1943 and send it to the 
House floor for quick approval. Let's not hinder the ability of the 
Amish to continue providing for themselves and their families, or to 
maintain their cultural and religiously-based ``learn by doing'' 
apprenticeships.
    Again, thank you for inviting me to testify on this issue today.
                                 ______
                                 
    Chairman Norwood. I would think the environmentalists would 
be for this bill. It would keep more cars off the highway.
    Mr. Blank, we're delighted you're here, and the effort you 
made to come, and I want you to feel very welcome, and we're 
delighted to hear from you now, sir.

    STATEMENT OF CHRIST K. BLANK, CHAIRMAN, OLD ORDER AMISH 
      STEERING COMMITTEE - NATIONAL, KINZERS, PENNSYLVANIA

    Mr. Blank. Thank you, Mr. Chairman. It is with 
appreciation, but humbleness, that we come before your 
Committee today. We wish to thank you for this opportunity to 
bring some of our concerns before you.
    As Chairman of the Old Order Amish Steering Committee, I am 
speaking on behalf of the various Older Amish and Mennonite 
communities throughout the United States. Our concern is the 
infringement of these child labor laws on our way of life.
    In recent years, our Committee has been getting more and 
more complaints of Amish and Mennonite businesses who have been 
fined for child labor violations, for allowing youth between 
age 14 and 17 to work in their various businesses.
    As you undoubtedly know, the Amish way of life and 
religious beliefs prohibit formal education beyond the eighth 
grade level. Typically, the Amish youth complete their formal 
education at the end of eighth grade.
    But their education does not stop there. Instead, they only 
begin to absorb with earnest the knowledge and the skills 
needed to earn a livelihood and support a family. Upon 
completion of the eighth grade, eight terms of elementary 
school, Amish children are enrolled in an informal vocational 
class of learning by doing under parent and church supervision 
to further prepare them to enter into the adult workplace. This 
informal vocational class is recognized by the United States 
Supreme Court ruling in Wisconsin v. Yoder as a legal 
alternative to the compulsory school attendance laws.
    We recognize that historically the child labor laws have 
been lenient on farm labor, especially a family farm. For many 
years our livelihood was based largely on agriculture, and for 
many, still is. However, due to the high cost of our dwindling 
supply of farmland, more and more of our families are being 
forced to start small businesses such as woodworking shops, 
welding shops, sawmills, pallet shops, et cetera. This is in 
keeping with the Amish tradition of operating a family business 
so the family can work together.
    This trend is gradually forcing more and more of our youth 
to learn other trades. And in our small woodworking shops, 
there are many occupations our youth would be capable of 
performing. However, more and more of our small woodworking 
shops are finding themselves in violation of the child labor 
laws. Under the present regulations, even the owner's own boy 
cannot legally work until age 16 in the manufacturing 
operation, or 18 in any occupation which the Secretary of Labor 
shall declare to be hazardous.
    We have many Amish-owned and operated sawmills among our 
community, so our youth are well-qualified and capable for 
providing hand labor in stacking and sorting lumber as it comes 
away from the saws. This sorting and stacking operation usually 
occurs some distance from the saws themselves. However, under 
the present regulations, no one under age 18 can legally work 
in a sawmill building.
    There seems to be a lot of government interest in finding 
ways to better prepare today's youth to enter today's 
workforce. Many states are drafting School to Work Acts, and it 
seems coincidental that at the same time these Amish are being 
fined for pursuing a system which has proved successful in 
preparing our youth for adulthood and to be respectful, self-
supporting citizens.
    In Wisconsin v. Yoder, Dr. Donald Erickson testified that 
the Amish system of learning by doing was the ideal system of 
education in terms of preparing Amish children for their life 
as adults in the Amish community.
    We are not asking for, nor do we intend to operate, any 
type of sweat shop operations. We only desire to continue our 
own informal vocational plan of learning by doing under parent 
and church supervision.
    The only concerns we hear voiced often are the safety 
concerns for our children. We certainly share that concern. 
However, we question where is the greatest danger. We feel it 
very important to have our youth involved in productive 
activity in those formative years of age 14 through 17 under 
parent and church supervision rather than being out on the 
streets or sitting around home with nothing to do.
    We strongly believe that the age 14 to 17 to be a very 
tender and receptive age in which to instill these long-
standing Amish values and work ethics in our children.
    Mr. Pitts explained the provisions of the law that does 
provide safety. This relief sought through this amendment to 
the Fair Labor Standards Act is to provide flexibility that 
permits Amish and other Old Order youth age 14 through 18 to 
learn skills and values by working in what are typical and 
common business owned by the Amish and other Old Order groups. 
It is not to compromise their safety. Supervision by adult 
members and other adults from the Amish community and certain 
limitations on activities these youths may perform are 
acceptable requirements.
    The Amish are becoming more safety conscious. Many 
communities have their own safety committees. The role of these 
committees is to become acquainted with the various OSHA and 
other government workforce regulations, to hold regular safety 
awareness meetings in our communities. We do encourage our 
youth to attend these safety meetings. At a recent meeting, 
about one-third of those attending were our youth.
    We as older Amish desire to continue to be a self-
supporting group without depending on the government for 
assistance. We desire to pass on to the next generation the 
work ethics and values our fathers handed down to us. It is our 
deepest desire to continue to be a self-supporting group and 
not become a burden on society.
    We ask and plea of you men of authority to find some 
reasonable solution to this current problem and concern which 
we bring before you today.
    Thank you for your consideration in this matter that is 
vital to the interest of the Amish and other religious 
communities.
    [The prepared statement of Mr. Blank follows:]

   Statement of Christ K. Blank, Chairman, Old Order Amish Steering 
              Committee - National, Kinzers, Pennsylvania

    Honorable Congressmen, Mr. Chairman and Committee members,
    It is with appreciation, but humbleness, that we come before your 
committee. We wish to thank you for the opportunity to bring some of 
our concerns before you today.
    I am speaking here today on the behalf of the many Old Order Amish 
and Mennonite communities through out the United States. In recent 
years we are getting more and more complaints of Amish & Mennonite 
businesses being fined for allowing boys under age 18 to work in their 
place of business. Our concern is the infringement of these Child Labor 
Laws on our way of life.
    As many of you undoubtedly know, the Amish way of life and 
religious beliefs prohibit formal education beyond the eighth grade 
level. Typically, the Amish youth leave school at the end of eighth 
grade, but their education does not stop there. Instead, they only 
begin to absorb in earnest, the knowledge and skills needed to earn a 
livelihood and support a family. Upon completion of the eight terms of 
elementary school, many Amish children are enrolled in an informal 
vocation class of learning by doing under parent and church supervision 
to further prepare them to enter into the adult work place. This 
informal vocational class, is recognized by, the United States Supreme 
Court ruling in Wisconsin v. Yoder, as a legal alternative to the 
compulsory school attendance laws.
    At age 14, an Amish boy or girl is considered to be ready for a 
full course of training. A training that requires ``learning by 
doing''. This adolescent period Is of utmost importance to our 
religious status. We must not tolerate idleness during these adolescent 
years, therefore, we see a dire need that our youth learn a trade or 
remain occupied, preferably under supervision of a parent or church 
member. It is a long-standing Amish belief and tradition to instill 
good work ethics in our children at a young age and to start training a 
child at a fairly young age to become a self-supporting, respectful and 
law abiding citizen. Train up a child in the way he should go and when 
he is old he will not depart from it. (Proverbs 22:6). We strongly 
believe the ages 14 through 17 to be a very tender receptive age in 
which to Instill these long standing Amish values and work ethics in 
our children. We believe that forced Idleness in this age to be 
detrimental to our long-standing Amish way of raising our children and 
teaching then to become good productive citizens. Keeping young hands 
busy also keeps them out of mischief.
    We recognize that, historically, the Child Labor laws have been 
more lenient on farm labor, especially a family farm. For many years 
our Livelihood was based largely on agriculture and for many still is. 
However due to many reasons beyond our control, the trend is gradually 
forcing more and more of our youth to learn other trades. We try to 
encourage an occupation where such youth is learning by doing by 
working at a place where his father or a member of the church is 
available to supervise him.
    Due to the high cost of our dwindling supply of farm land, more and 
more of our families are being forced to start small businesses such as 
woodworking shops, welding shops, sawmills, pallet shops etc. This is 
in keeping with the Amish tradition of operating a family business so 
the family can work together.
    We have many Amish owned or operated sawmills among our 
communities. Our youth are well qualified and capable of providing hand 
labor in stacking and sorting the lumber as it comes away from the 
saws. This sorting and stacking operation usually occurs some distance 
away from the saws themselves. However, under the present regulations 
no one under age 18 is allowed to work in a sawmill building. We have 
in the audience several owners of sawmill operations that were 
investigated and fined for allowing boys under age 18 to work in the 
very situation described above. None of the owners were aware that they 
were in violation of the child labor law until the investigator showed 
up. They were told to send the boys home and warned that if he (the 
investigator) comes back again in several weeks and finds the boys back 
on the premises, he will shut the whole operation down. These threats 
created a great concern in the area, not only among the Amish, but also 
among their non Amish neighbors. They received no warning before they 
were fined even though the owners indicated they would comply with the 
order.
    One of the owners related an incident to me where one of the boys, 
whom he was required to send home, came back and asked, in tears, 
``When can I come to work again?'' The owner of course had to say ``Not 
until you are eighteen.''
    In our small woodworking shops there are many occupations our youth 
would be capable of performing, however, more and more of our small 
woodworking shops are finding themselves In violation with the child 
labor laws because of the power tools that are needed to be efficient. 
Under the present Regulations even the owners own boy could not work 
until age 16 in a manufacturing operation or age 18 in any occupation 
which the Secretary of Labor shall declare to be hazardous.
    There seems to be a lot governmental interest in finding ways to 
better prepare todays youth to enter into todays workforce. Many states 
are drafting School to Work Acts. It seems coincidental that at the 
same time, these Amish are being fined for pursuing a system which has 
been proven successful in preparing our youth for adulthood and to be 
respectful, self-supporting citizens.
    In Wisconsin v. Yoder, Dr. Donald Erickson testified that the Amish 
System of learning by doing was an ``ideal system'' of education in 
terms of preparing Amish children for life as adults in the Amish 
community. Fit further stated, ``Many public educators would be elated 
if their programs would be as successful in preparing their students 
for productive community life as the Amish system seems to be.''
    We realize that the object of the Child Labor laws is to protect 
the children. We Amish share your concern for safety in the work place. 
As an illustration of our concern, in one of our larger communities 
they have set up an Amish safety committee. The purpose of this 
committee is to work with Amish businesses to help make our people more 
aware of good safety practices that need to be instilled in our work 
places. Some other Amish communities are also showing interest in 
setting similar committees.
    As Old Order Amish, we desire to be a self supporting group, taking 
care of their own needy and elderly people, in their own way, without 
depending on the government for assistance. In the past we have been 
granted a number of exemptions from participating in various programs 
or requirements which our forefathers saw as being detrimental to our 
way of life or which our religious beliefs prohibit. We very much 
appreciate the many privileges which we have been granted over the 
years. It is our deepest desire to continue to be a self-supporting 
group and not to become a burden on society.
    We ask and plea of you men of authority to find some reasonable 
solution to this current problem and concern that we bring before you 
today. We wish you many blessings and the guidance from above in 
performing your many very important duties as elected officials of our 
country. May the Lord Bless you.
                                 ______
                                 
    Chairman Norwood. Thank you, Mr. Blank.
    And now I'd like to recognize Mr. Clark, and we welcome you 
here and look forward to your testimony.

    STATEMENT OF NICHOLAS W. CLARK, ESQ., ASSISTANT GENERAL 
     COUNSEL, UNITED FOOD AND COMMERCIAL WORKERS, AFL-CIO, 
                         WASHINGTON, DC

    Mr. Clark. Thank you, Mr. Chairman and Members of the 
Subcommittee. Thank you for this opportunity to present the 
views of working people on this most important issue of child 
labor protections.
    My written statement has already been submitted for the 
record, so my remarks here will be brief.
    While we respect the desires of the Amish community to 
provide employment opportunities for Amish youth, we think that 
weakening child labor protections is the wrong way to 
accomplish that objective.
    Under current law, all children, regardless of faith, are 
prohibited from working in sawmills or other woodworking jobs. 
The reason is simple. For decades, the Federal Government has 
concluded that these occupations are extremely dangerous, even 
for adult workers, and even more dangerous for young workers.
    Sawmilling and woodworking jobs are among the most 
hazardous occupations, with a death rate that is five times the 
national average for all industries, exceeding rates even in 
the construction industry. Those occupations also have 
exceptionally high non-fatal injury rates.
    We must recognize that work which is dangerous for adults 
is doubly dangerous for children. Occupational injuries for 
children are double the occupational rates of injuries for 
adults. Every five days in this country, a child is killed on 
the job. Every 40 seconds a child is injured on the job.
    This bill would allow Amish children ages 14 to 17 to work 
in Amish-owned shops that produce storage sheds, furniture, and 
other consumer wood products, while preserving government 
prohibitions against such employment of non-Amish children. 
This means that only Amish children lose government protections 
against working in such extremely dangerous occupations.
    This bill purports to provide certain safety protections 
for children employed in these mills. However, the Federal 
Government has carefully examined those proposals and concluded 
after visits to operating sawmills that these so-called 
protections have very serious problems and would not protect 
children from serious injury or death from working in these 
facilities.
    Furthermore, the bill would not prevent children from 
operating all machinery that is in these shops. It would also 
not protect them from falling boards, not protect them from 
carcinogenic fumes, or from fires or explosions.
    Between 1988 and 1997, seven deaths occurred among workers 
in sawmill occupations who were younger than 18. One was a 17-
year-old Amish youth who was electrocuted. Another a 16-year-
old electrocuted while performing odd jobs and clean-up work. A 
17-year-old died after being struck on the head by a large 
board. Other children received crippling injuries. One 16-year-
old had his foot amputated by a conveyor belt. A 17-year-old 
lost his finger.
    Clearly, for safety reasons alone, the proposed regulations 
or the proposed bill is a bad idea. However, there are other 
reasons for rejecting the bill, most notably that it is 
unconstitutional. Both the First Amendment's Establishment 
Clause and the Fourteenth Amendment's Equal Protection Clause 
prohibit legislation that provides one group of persons more or 
less protection than afforded other persons simply because of 
their religious affiliation.
    This bill would grant Amish-owned sawmills and woodworking 
firms an exception from child labor laws that are denied 
competing firms owned by persons of non-Amish faith. And the 
bill would deny Amish children the very real benefits of 
government health and safety protections that are afforded non-
Amish children. Congress cannot constitutionally deny Amish 
children child labor protections simply because they are Amish.
    As stated at the outset, we are sensitive to the desires of 
the Amish community to provide employment opportunities for 
Amish youth. I myself, like the Congressman, have Amish roots. 
My great grandmother was Amish, from Bucks County, 
Pennsylvania. We recognize that employment opportunities in 
farming which traditionally fulfilled this desire are becoming 
less plentiful.
    However, it must be recognized that few Amish-owned for-
profit businesses even existed prior to 1970, and that over 30 
percent of such firms have been started since 1995. By the time 
these firms were started, the laws prohibiting child labor in 
sawmill and woodworking operations as well as the abysmal 
safety record of those occupations were well- established.
    While these firms provide much-needed employment for Amish 
adults, they cannot safely or constitutionally serve that 
purpose for Amish children. Accordingly, we call on Congress to 
reject H.R. 1943 as perhaps well-intended, but an unwise, 
unsafe, and unconstitutional proposal.
    I wish to close by relating to the Subcommittee the 
sentiments of USCW members who are sawmill workers. They said 
that allowing children under the age of 18 to work in their 
facilities is a very bad idea because the work is simply much 
too dangerous for workers of that age. They felt so strongly 
about the issue that they asked for an opportunity to write the 
Subcommittee about their experience and concerns, and we will 
be submitting that letter to the Committee within the 14-day 
period.
    That concludes my remarks, and I invite any questions that 
the Subcommittee may have.
    [The prepared statement of Mr. Clark follows:]

Statement of Nicholas W. Clark, Assistant General Counsel, United Food 
            and Commercial Workers, AFL-CIO, Washington, DC

    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to present the views of working 
people on this most important issue of child labor protections for 
working Americans. While we respect the desires of the Amish community 
to provide employment opportunities for Amish youth that are consistent 
with Amish religious and cultural values, there are sound and 
compelling reasons for our opposition to this proposed legislation.
    First, the proposed legislation would expose Amish children ages 
14-17 to working conditions which the federal government has concluded 
are ``extremely dangerous'' even for adult workers, and which are 
``especially inappropriate for young workers.(1) According to federal 
government studies, sawmilling and woodworking are among the most 
hazardous occupations for adults, with a death rate that is five times 
the national average for all industries, exceeding rates in 
construction, trucking and warehousing, and an exceptionally high non-
fatal injury rate.(2) For these reasons, the Fair Labor Standards Act 
prohibits any manufacturing employment by children under the age of 17, 
and U.S. Department of Labor Hazardous Occupations Order No. 4 (H04) 
prohibits any employment of persons under the age of 18 in a sawmilling 
or woodworking facility.(3) HO4 was promulgated pursuant to the 
Secretary of Labor's statutory obligation to protect children under the 
age of 18 from jobs which are particularly hazardous or detrimental to 
their health and safety.(4)
    H.R. 1943 purports to provide certain safety protections for 
children employed in Amish-owned sawmills or woodworking facilities. 
However, the federal government has ``carefully examined'' those 
proposals and concluded ``after visits to operating sawmills'' that 
these so-called protections have ``very serious practical problems'' 
and would not protect children from serious injury or death from 
working in these facilities.(5)
    Although statistics on injuries to children from sawmill and 
woodworking jobs should be non-existent because such labor is illegal, 
sadly some employers have violated the law, with tragic results. 
Between 1988 and 1997, 7 deaths occurred among workers in these 
occupations who were younger than 18. One was a 17-year-old Amish youth 
who was electrocuted. Another was a 16-year-old electrocuted while 
performing odd jobs and clean-up work. Another was a 17-year-old who 
died after being struck on the head by a large board. Other children 
received crippling injuries. One 16-year-old had his foot amputated as 
a result of a conveyor belt accident. A 17-year-old lost his finger 
while cutting a piece of lumber.(6)
    The proposed legislation targets Amish children, and will likely 
result in even more mutilating injuries or deaths among Amish children. 
For this reason alone, the proposal should be rejected.
    However, the proposed legislation should also be rejected because 
it violates the First and Fourteenth Amendments to the U.S. 
Constitution. Both the First Amendment's Establishment Clause and the 
Fourteenth Amendment's Equal Protection Clause preclude legislation 
that would provide one group of person more or less protection than 
afforded other persons simply because of the religious affiliation. 
H.R. 1943 would deny Amish children the very real benefits of 
governmental health and safety protections that are afforded Catholic, 
Baptist, Jewish or any other children of non-Amish faith. Further, it 
would grant Amish-owned sawmills and woodworking firms an exception 
from child labor laws that are denied firms owned by persons of non-
Amish faiths. Amish first came to this country to escape a government 
that denied them protections afforded persons o other faiths. Amish 
children have benefited from the same child labor protections afforded 
children of other faiths for over 60 years. Congress should not deny 
them those protections now simply because they are Amish.
    The proposal would also require government investigators to 
determine whether owners of firms seeking to employ child labor, and 
their child employees, are truly Amish. Such determinations would 
necessarily entangle the government in the practice of religion, also 
in violation of the First Amendment.
    As stated at the outset we are sensitive to the desires of the 
Amish community to provide employment opportunities for Amish youth. We 
also recognize that employment opportunities in farming, which 
traditionally fulfilled this need, are becoming less plentiful. 
However, it must be recognized that few Amish-owned for-profit 
businesses even existed prior to 1970, that 60 percent of all such 
firms have been started since 1980, and that over 30 percent of such 
firms have been started since 1995.(7) By the time these firms were 
started, the laws prohibiting child labor in such occupations, as well 
as they abysmal safety record for such occupations, were well 
established. While these firms provide much needed employment for Amish 
adults, they cannot safely or constitutionally serve that purpose for 
Amish children.
    Accordingly, we call upon Congress to reject H.R. 1943 as a perhaps 
well intended but unwise proposal. We urge that Congress instead act to 
strengthen child labor protections by enacting H.R. 3139, the Youth 
Worker Protection Act, which was introduced September 23, 2003, and 
which would greatly enhance child labor protections while preserving 
the existing family farm exception.
Endnotes
1. Letters, U.S. Department of Labor to Congressman Joseph R. Pitts, 
        10-28-97; 4-20-98.
2. Id.
3. Letter, U.S. Department of Labor to United States Senate, 3-5-98. 
        H04 may be found at 29 C.F.R. 570.54.
4. Id. According to DOL, ``injury data collected over several decades 
        has consistently shown that sawmills are particularly hazardous 
        workplaces for adults, let alone children.''
5. Letter, U.S. Department of Labor to Congressman Joseph R. Pitts, 4-
        20-98.
6.National Institute for Occupational Safety an Recommendations to the 
        U.S. Department of Labor for Changes to Hazardous Order, May 3, 
        2002; Summary of Accident Investigations Investigated by OSHA, 
        April 1984-98 (March 2, 1998).
7. D.B. Kraybill & S.M. Nolt, Amish Enterprises: From Plows to Profits 
        (James Hopkins Press).
                                 ______
                                 
    Chairman Norwood. Thank you, Mr. Clark.
    Mr. Burkholder, you are going to be recognized, and I want 
to thank you for traveling some distance to be with us.

STATEMENT OF WILLIAM BURKHOLDER, C.B. HARDWOOD LUMBER COMPANY, 
                   CENTERVILLE, PENNSYLVANIA

    Mr. Burkholder. Thank you, Mr. Chairman. Greetings, 
Committee Members. Thank you for the opportunity to present to 
you our concern regarding well-intended child labor laws and 
the adverse impact some of these laws are now having in our 
Amish community to our way of life.
    As I am sure you are aware, children in our community 
finish classroom school in eighth grade, learning the 
essentials of reading, writing and arithmetic. While this 
learning is an important part of shaping their lives, preparing 
them for adulthood, their success with our way of life requires 
other skills as well.
    Many adult occupations have been learning by doing. Despite 
living in a technological world, we have limited ourselves by 
choice to occupations that leave time for our faith in God and 
for our families. Farming, carpentry, wood and metal shops, 
sawmills, harness making, and furniture making are some of the 
ways I'm sure you recognize we earn our living.
    They are occupations that reinforce self-reliance with our 
group or community as well as the work ethic. While many of 
your own children might have a computer at an early age to 
begin to acquire the skills they will need to thrive in a 
modern, fast-paced world, our society requires faith and 
tradition to keep itself together to continue to thrive in a 
modern world. Again, this tradition is one of our faith in God, 
a belief in the importance of our families, of self-reliance 
within our group, and hard work. These beliefs and lessons we 
share with our children, even at a very young age. They learn 
by our example and by doing.
    We recognize that child labor laws were made and needed to 
correct abuse in the past. These laws still help ensure that 
children are not forced into unsafe, exploitive labor. We hope 
you recognize that we pursue the same goal as you regarding the 
safety of our children.
    In 1971, the Supreme Court by its decision in Yoder v. 
Board of Education recognized the intent and purpose for us to 
educate our children in our own schools. Graduates from our 
Amish schools are most often eager to provide for themselves as 
hard workers. They turn to farms, shops, or mill owners like 
myself to earn an income to get started on a farm or other 
business on their own. This is a cycle that has repeated itself 
successfully throughout the history of our community in the 
United States.
    Despite rising land costs, property taxes, income taxes, 
school taxes, start-up costs for businesses, buildings, 
equipment, and machinery, our young people overcome many 
obstacles to start off on their own in our community. Besides a 
commitment to hard work to achieve their goals, they also must 
rely on their family and business owners like myself to help 
them get started.
    Thank you.
    [The prepared statement of Mr. Burkholder follows.]

    Statement of William Burkholder, C.B. Hardwood Lumber Company, 
                       Centerville, Pennsylvania

    Thank you for the opportunity to present to you our concerns 
regarding the well intended child labor laws and the adverse impact 
some of these laws are now having in our Amish community to our way of 
life.
    As I'm sure you are aware, children in our community finish 
classroom school in eighth grade learning the essentials of reading, 
writing , and arithmetic. While this learning is an important part of 
shaping their lives, preparing them for adulthood, their success with 
our way of life requires other skills as well. Many of our adult 
occupations have been learned by doing. Despite living in a 
technological world, we have limited ourselves by choice to occupations 
that leave time for our faith in God and for our families. Farming, 
carpentry, wood and metal shops, saw mills, harness making, and 
furniture making are some of the ways I'm sure you recognize we earn 
our living.
    They are occupations that reinforce self reliance within our group 
or community as well as the work ethic. While many of your own children 
might have a computer at an early age to begin to acquire the skills 
they will need to thrive in a modern, fast paced world, our society 
requires faith and tradition to keep itself together to continue to 
thrive in a modern world. Again, this tradition is one of our faith in 
God, a belief in the importance of our families, of self reliance 
within our group and hard work. These beliefs and lessons we share with 
our children even at a very young age. They learn by our example and by 
doing. We recognize that child labor laws were made and needed to 
correct abuses in the past. These laws still help insure that children 
are not forced into unsafe, exploitive labors. We hope that you 
recognize that we pursue the same goal as you regarding the safety of 
our children.
    In 1971, the Supreme Court, by its decision in Yoder v. (Board of 
Education) recognized the intent and purpose for us to educate our 
children in our own schools. Graduates from our Amish schools are most 
often eager to prove themselves as hard workers. They turn to farm, 
shop, or mill owners like myself, to earn an income to get started on a 
farm or other business on their own. This is a cycle that has repeated 
itself successfully throughout the history of our community in the 
United States.
    Despite rising land costs, property taxes, income taxes, school 
taxes, start up costs for business, buildings, equipment, and 
machinery, our young people overcome many obstacles to start off on 
their own in our community. Besides a commitment to hard work to 
achieve their own goals, they also must rely on their families and 
business owners like myself to help them get started.
                                 ______
                                 
    Chairman Norwood. Thank you, sir.
    Mr. Pitts, in Mr. Clark's testimony, he raised concerns 
about the constitutionality of this legislation, and he 
specifically stated that it would violate the Establishment 
Clause of the Constitution by favoring Amish youth over non-
Amish youth.
    Now I know you well enough to know that you and your staff 
probably had a bevy of Constitutional lawyers around when you 
were drafting H.R. 1943, so from that I have a couple of 
questions. As I read this legislation, it is not strictly 
limited to Amish youth, but rather, any individual whose 
recognized religious sect or division fits the qualifications 
that are set forth in this bill. Do I read that correctly?
    Mr. Pitts. That is correct, Mr. Chairman, you're reading it 
correctly.
    Chairman Norwood. And I understand that H.R. 1943 is 
modeled on language that the Supreme Court has already held to 
be Constitutional in another context. Am I right about that?
    Mr. Pitts. That is correct. The language is based on 
language that has been found Constitutional by the U.S. Supreme 
Court in upholding religious exemption for the Social Security 
taxes.
    Chairman Norwood. Is it reasonable to expect this language 
would be found Constitutional, as well?
    Mr. Pitts. Yes, Mr. Chairman. There have been a couple of 
cases, and I'm sure Mr. Blank can cite them, where this has 
gone all the way to the Supreme Court, and they have been 
upheld in the Supreme Court. He's mentioned it as far as Amish 
schools, their education system, and it's true as far as the 
Social Security system.
    Chairman Norwood. Mr. Souder and Mr. Pitts, I'd like for 
you to--I think the Subcommittee needs to hear, frankly, a 
little bit of your knowledge as it relates to your constituents 
back home as this law has been enforced on your constituents 
and what kinds of fines have been levied and what is this doing 
to your constituents.
    Mr. Pitts. Thank you, Mr. Chairman. As I mentioned, one 
case in Lancaster County had to do with a leather shop, harness 
making, leatherworking shop. It's very well-known in my area. 
And they have in the front of the shop where the cash register 
is, they have all kinds of displays of merchandise, and in the 
back, they have machines that actually work on the leather.
    This gentleman contacted me, Amish gentleman. He had his 
15-year-old daughter in the front of the shop operating a cash 
register, learning to use a cash register. He was cited by the 
Department of Labor for violating child labor laws because in 
the back of the shop, there were some machines that could be 
considered hazardous in their case. That was an $8,000 fine.
    I have met with a number of Amish from not only my district 
but all over the country. The fines have ranged from 8 to 10 to 
12 to 15, up to $20,000, in various settings, mostly in 
woodworking. A lot of the Amish, since there's not enough 
farmland, they're getting into woodworking, making sheds and 
lawn furniture, things like that. Because there's a power tool 
on the premise, they are being cited and fined, and they came 
to me and said, look, we want to be good citizens, but we can't 
afford these kind of fines. They asked for some kind of 
intervention with the Department.
    Chairman Norwood. Just a minute Mr.--I wonder what a 
harness would retail for?
    Mr. Pitts. Well, I'll ask one of the gentlemen here.
    Chairman Norwood. Just ball park. Typically, what might a 
harness----
    Mr. Blank. Well, our typical driving harness that we use in 
our community is between $300 and $400 for a new harness. Now 
what the shop that he's talking about, he does a lot of 
harnesses for like shows and things like that, and I have no 
idea what they might sell for, but they are a lot more 
expensive than that.
    Chairman Norwood. How long would it take to make a harness?
    Mr. Blank. Well, I can't answer that. I'm not really 
involved in harness making. I would say one person working a 
day.
    Chairman Norwood. I guess my--comment?
    Mr. Pitts. I just asked any of the other observers if any 
of them were involved and knew.
    Chairman Norwood. Well, you'd have to work a lot of days to 
make enough harnesses to pay the taxes and then pay an $8,000 
fine. I wonder if that fine is aimed at putting somebody out of 
business. Because you can't live with that very long.
    Mr. Souder, what's going on in your district?
    Mr. Souder. It's a little different in Indiana. As best I 
can tell from the meetings that we've had, that this was 
precipitated mostly out of the Philadelphia Labor office. They 
came into Pennsylvania, probably had complaints from 
competitors or people who were worried about other categories, 
didn't understand the religious liberty clause, which clearly 
is defined for whether you're drafted, Social Security. There 
are all kinds of variables that relate to this.
    They didn't understand that the courts already ruled that 
they can have their kids leave at eighth grade. What are they 
supposed to do from the time they leave at eighth grade until 
they get to this age? They don't believe--they believe idle 
time is the devil's workshop. What are these kids supposed to 
do if they don't have enough farm work? Yeah, maybe they can 
milk a cow in the morning, they can do a little bit later, but 
if you don't have enough acreage to keep them busy full time, 
they need to have work.
    Now in Indiana--I believe there's been a little enforcement 
in Ohio--but in Indiana, they have not enforced it. The 
Department of Labor there has, I believe, had more occasion to 
understand what's happening in the Amish community, and we 
haven't had that pressure. But we're very worried that the 
precedent that was set in Pennsylvania is going to start to 
ripple through the whole country, and then we're going to have 
lots of court cases trying to define whether these fines are 
legitimate or not legitimate, whether these people's minority 
rights are protected under the Constitution or not, and this 
legislation would help address that.
    The problem so far has been mostly localized in 
Pennsylvania. But as other people see them as a threat, the 
goal here is really not what it looks like--child safety. These 
kids in this faith are far safer than anybody else's family, 
almost, in America. Here it's really competition, because as 
they move from farm labor to other things, people want to shut 
them down.
    Chairman Norwood. I have many more questions, but I see my 
time is up. I yield to Mr. Owens for questions.
    Mr. Owens. Your last statement, Mr. Souder, about people 
wanting to shut them down, is there any evidence or facts to 
back that up? It implies the Department of Labor is part of a 
conspiracy to shut down the Amish. I don't think in this great 
country of ours anybody really wants to interfere with----
    Mr. Souder. The motives of the individual people who are at 
the Department of Labor, although I will say in talking with 
the Department of Labor, he had never visited an Amish place. 
He had no understanding what the Amish religion was, why the 
person who made the decision didn't understand the debate. In 
my community where we have had Amish do different things, 
Mennonites and others, of which I am not Amish. My family left, 
and I understand this pressure. They complain all the time that 
the Amish don't do this, the Amish don't do that, the Amish 
don't that. Yes, it is a huge pressure in the communities 
involved.
    Mr. Pitts. Mr. Chairman, as far as the double standard is 
concerned, your kids, my kids in our schools, English schools 
they call them, have lab or shop classes or they can go to vo-
tech school. My son at age 14 made a beautiful coffee table 
with a bandsaw. And in his class were 14 other kids, and there 
was one teacher. Now that's what our kids do use. They use the 
equipment. We're not even asking that their kids can use the 
machinery. We just want them in the workplace so that they can 
learn the work ethic. They may only glue the lumber, stack 
lumber, sweep sawdust, fill out paperwork. But we're not asking 
that they use the bandsaws or the power equipment like our kids 
do. That is a double standard.
    Mr. Owens. I don't think either one of you gentlemen 
question the premise of the government and its assumption that 
it must protect the children. I don't think anybody would argue 
that Amish teenagers are any more mature than any other 
teenagers, and that the basic premise here is to protect 
children.
    There are numerous other religions throughout the country 
that ask for exemptions, too, and you'd have a domino effect 
here if you start exempting on the basis of the fact that this 
particular set of beliefs is such that we ought to honor it by 
exempting it. There are some groups that don't want children 
vaccinated, and there are some that don't want blood 
transfusions under any circumstances. There are numerous other 
ways in which various religious groups have asked for 
exceptions that this would open a Pandora's Box to.
    The constitutionality question is still, it seems to me, up 
in the air in terms of--I think your bill says that these youth 
would be supervised by Amish supervisors, Amish adults. That 
means that no other adults could be hired to do that. That 
seems like just a technicality, but once you permit that 
technicality in this case, you open the door for it to be also 
a precedent for numerous others.
    And Mr. Clark, does basing legislation on specific 
religious belief instead of naming a specific religion in any 
way immunize the legislation from constitutional challenge?
    Mr. Clark. No, it doesn't.
    Mr. Owens. Can you use the mike, please?
    Mr. Clark. No, it doesn't. I think the rulings that were 
referred to actually refer to issues other than child labor, 
where the government interest is not so compelling. Here we're 
talking about a matter of serious injury, even death, for 
children. And in that situation, this bill doesn't favor Amish 
children; it disfavors them. It says that they and they alone 
and not children of other religions can lose the child labor 
protections that are in the law for other children.
    Mr. Owens. In other words, the whole question of 
competitiveness, also, if there is competition which has led 
the Amish to use power equipment where they don't use it 
normally in their homes, you want to be competitive. If you can 
employ children and the other people cannot employ children, 
then that means that you get an advantage in terms of 
competitiveness also, which is another question in terms of 
equal protection under the law.
    Mr. Pitts, you spoke of an $8,000 fine at a harness-making 
shop. How much was actually paid? And did that employ a paid-up 
fine, or was it subsequently reduced? Was this a recent 
occurrence, or----
    Mr. Pitts. No. This was one of the initial occurrences that 
brought this to my attention several years ago, so I am not 
sure whether he has paid the fine or if it was reduced or 
increased. I know I have gotten lots of other complaints from 
other business--these are family businesses basically, small 
businesses.
    Mr. Owens. OSHA inspectors have so many businesses to 
inspect and so few inspectors, would you say that there's been 
an inordinate number of inspections of the Amish shops? Have 
they been harassed?
    Mr. Pitts. They seem to have been targeted.
    Mr. Owens. You think they've been targeted?
    Mr. Pitts. Yes. They have received visits. And your point 
about being disadvantaged, I would say if other businesses 
don't want to use electricity or want to use buggies and 
horses, let's level the playing field. The Amish are definitely 
at a disadvantage when they're competing. They don't use 
electricity. They've got to improvise in other ways. They don't 
use computers. They don't use automobiles or trucks. They are 
definitely disadvantaged.
    All they're trying to do is keep their kids and let them 
learn a work ethic and be self-sufficient by age 18.
    Mr. Owens. Well, that relates to my very last question. Do 
you have any written statement from the Labor Department 
explaining why the Department cannot proceed administratively 
to address this issue?
    Mr. Pitts. Yes, Mr. Chairman.
    Mr. Owens. Could you provide it for the record?
    Mr. Pitts. We have tried several things. First of all, we 
tried a state internship program, because in Pennsylvania, we 
have an apprenticeship program approved by our Department of 
Education for the 14 to 18-year-olds. We thought, well, maybe 
we could have a state internship program. The Department turned 
us down because there are no exceptions for the Hazardous 
Occupation Order Number 4 or Number 5.
    We then tried a proposal to allow 16 and 17-year-olds to 
work in a sawmill building as long as they remained 150 feet 
away from the sawmill equipment. They turned us down there.
    We tried another proposal to allow 16 and 17-year-olds to 
work in a physically separate part of the sawmill operation. 
They turned us down.
    So we have tried other administrative type procedures, and 
basically the department has said there's no regulatory or 
administrative solution. You have to do it by legislation.
    Mr. Owens. And of course this has always been civil 
servants, because we've been through three or four 
administrations, Republican and Democratic.
    Mr. Pitts. Yeah, it's both.
    Mr. Owens. So it's not a political, partisan political 
issue?
    Mr. Pitts. No.
    Mr. Owens. Thank you.
    Chairman Norwood. In other words, it isn't partisan.
    Mr. Owens. It is?
    Chairman Norwood. It's not, Mr. Owens. Let me just make 
sure I got the record straight here. Now Mr. Owens was 
referring to these inspections from OSHA. Is it OSHA that's 
coming in, or is it the Labor Department that's coming in?
    Mr. Pitts. No, we're talking about the Department of Labor, 
labor law, the Wage and Hour Division.
    Chairman Norwood. So it's not coming directly out of the 
OSHA division?
    Mr. Pitts. Not what I am talking about.
    Chairman Norwood. Okay. That's important to know that.
    And just to comment, the Federal Government, Mr. Owens 
says, is responsible for keeping our children safe. And I 
happen to believe that there are other people responsible for 
that, too. A lot of times it happens to be your daddy or your 
uncle, and I'm not so sure the Federal Government can ever do 
as good a job as we should do for our own children ourselves.
    With that, Ms. Biggert, you are recognized for five 
minutes.
    Mrs. Biggert. Thank you very much, Mr. Chairman. And thank 
you all for coming. This has been an interesting hearing. I 
have a question for Mr. Burkholder. You own a lumber yard or 
lumber mill?
    Mr. Burkholder. Yes.
    Mrs. Biggert. Could you just describe what the--well, first 
of all, under the Fair Labor Standards Act, the agricultural 
work is exempt right now. Can you describe what Amish youth 
would do under--within agriculture as compared to what they 
would do in something like your lumber yard?
    Mr. Burkholder. Well, with agriculture, really, I mean, 
youths are permitted to even ride a tractor, drive a tractor 
and things like that, which I would not permit my child. And in 
the lumber industry, I had boys that were--it was a separate 
building completely from the mill, and is a grading shed where 
they just pile in the lumber, and from the height of this table 
onto a cart beside them, they just pulled the board. They 
didn't really have to lift the board completely, and pile it on 
there. And they said the lumber is too heavy. It's too much 
weight for the boys to lift the lumber.
    And they had no problem. They could do it probably twice as 
good as I could, and for say all day, and other--as far as your 
farming, I know, you know, adults that have gotten killed from 
riding tractors, and horses run away. I mean, we try to keep 
our horses, you know, train them safe so they don't run away, 
and they're very obedient. And that is dangerous, too, if you 
have colts and so on.
    But I think as far as piling the lumber and behind the 
mill, is not hard work. It's heavy, but it's still not hard 
work.
    Mrs. Biggert. How many employees do you have?
    Mr. Burkholder. I have around 30 now.
    Mrs. Biggert. Thirty?
    Mr. Burkholder. Yeah.
    Mrs. Biggert. And do you have sons that work?
    Mr. Burkholder. I did have. They both moved away, so 
neither one of them are working with me now, but they did start 
when they was real young, and I didn't realize it, and they 
worked with me all the way through until three years ago.
    Mrs. Biggert. And do you have other employees who have 
their children that are working there?
    Mr. Burkholder. I have a few of them that are under--
they're 16. The labor board told me they can work from 16 to 17 
on machinery that feeds in with belt or chain or rolls, and 
they can stack the lumber with that. But between 16 and 18. But 
under 16, no. I had six boys that were fined.
    Mrs. Biggert. Was this after they told--or you were fined?
    Mr. Burkholder. Yes. Then they come back and looked at the 
machinery and everything and then they--this was in the pallet 
shop, not the sawmill.
    Mrs. Biggert. Do you think that--well, concerns have been 
raised about if the Amish youth are permitted to work in the 
woodworking, that they might go and work for non-Amish business 
or otherwise become unfair competition. Have any of these 
wanted to go----
    Mr. Burkholder. Not to my knowledge. I have a nephew that 
worked on a farm, but other than that, I can't--I don't know, 
to my knowledge, I don't know of anyone that----
    Mrs. Biggert. Well, it would be really hard under this 
bill, wouldn't it? Because it requires that the minor be 
supervised by a relative or a member----
    Mr. Burkholder. Right. A relative or--yes.
    Mrs. Biggert. Is this a big business? I mean, do you have a 
big lumber company?
    Mr. Burkholder. Well, it's fair size, yeah. We have----
    Mrs. Biggert. Thirty employees.
    Mr. Burkholder. We cut the lumber and then I do the sales 
for the lumber, and then we take what we call the low grade, 
and then we make some pallets.
    Mrs. Biggert. And where do you sell it?
    Mr. Burkholder. There's brokers that buy the pallets and 
different companies that buy the pallets.
    Mrs. Biggert. So they come and pick it up there?
    Mr. Burkholder. No. We have to hire somebody to deliver it.
    Mrs. Biggert. So how would you compare safety-wise the 
working----
    Mr. Burkholder. For safety, I have shop saws in the shop, 
but I never--I've always kept all them away from--I have----
    Mrs. Biggert. Have you had any accidents? Have you had any 
accidents of adults or children?
    Mr. Burkholder. Yes, I have had from adults, more adults 
than I had from children. I had one child that he wasn't 
supposed to run the saw, but he did, and he cut himself a 
little. But the adults, I don't know. I still have no idea. He 
stuck his hand right in the bandsaw while it was running to 
pull a slab out and we've told him shut it down. I mean, he's 
been warned and warned. And I don't know why he done it. I have 
no idea. He reached right in there and it pulled his hand right 
in the blade and----
    Mrs. Biggert. Well, under the bill, it says that a minor 
may not under any circumstance operate or assist in the 
operation of power-driven woodworking machines, so that, you 
know, accidents happen, but I think that with the size of the 
operations, I think this is a really good bill. And I don't 
understand the reason for the Department of Labor coming into 
an operation like this when this is such a community that, you 
know, is off to itself. And I congratulate both of you for 
bringing this bill forward.
    Chairman Norwood. Mr. Pitts, did you want to----
    Mr. Pitts. Yes, Mr. Chairman, to elaborate a little bit on 
Ms. Biggert's question on what they do in agriculture. If 
they're in agriculture, they're totally exempt. And as I saw a 
few years ago, a 10-year-old boy was driving a team of mules 
with disc in the field. And I was visiting his parents, and all 
of a sudden, down the highway came a team of mules galloping, 
dragging behind these discs. Cars were scattering everywhere. 
And they came right in the driveway, right by me, went up to 
the barn and stopped. And looked up in the field, and the 
little boy waved, and everything was okay.
    A ten-year-old can drive a team of mules, and they're 
totally exempt. Any kind of agriculture, but not if it's 
woodworking.
    Mr. Souder. Can I make a safety comment, too?
    Chairman Norwood. Mr. Souder?
    Mr. Souder. I think it's important to understand the 
functioning in the safety side. I think one thing is, is they 
really want to be law-abiding, because they believe it's a sin 
if you don't obey. Therefore, when there is an investigation at 
one or two places, it goes through the budget newspaper and 
everywhere else all over the country as to what this means in 
behavior.
    One of the good benefits of this is, is that they're 
finding it clarified as well, too, about don't let the kids on 
the machinery, or you could get fined. This bill actually 
probably is a step back for many of those woodworking places 
that have been expanding in the last number of years.
    We've gone through this with milk on Grade A versus Grade B 
milk and had to fight the definitions of what they'll do with 
milking machines. We've been through this on highways, with 
whether the triangle was a mark of the beast. We've been 
through this with immunizations. We've been through this with 
farm runoff and what kind of farm runoff impacts their 
neighbors and how can they have enough flexibility to adapt to 
technology to keep their religion so they can hold jobs so they 
can protect their kids, when they can deprive health care, when 
they can't deprive health care. But the fundamental question 
is, if you can't eat, if you can't get jobs to sustain 
yourselves and your religion, you abandon the religion or you 
abandon the region.
    And the question here is, can we keep this safe so these 
kids can be in these buildings and yet still be working? Or are 
we not even going to let them in the buildings? On the other 
hand, the Amish are going to have to be more careful, or 
they're going to be fined if these kids get on the machines.
    Chairman Norwood. Ms. Majette, you are now recognized, my 
colleague and friend from Georgia.
    Ms. Majette. Thank you, Mr. Chairman. And I thank all of 
the witnesses for being here this morning. I am new to the 
Committee, and I come to this Committee with a little bit of a 
background that I'd like to explain to you before I ask the 
question.
    I am representing Georgia's 4th District, which is an area 
that primarily had been farmland, dairy farmers and others, and 
it has transitioned to a suburban and now more of an urban 
area. So I understand, I think, how things have changed and how 
people have to change in order to continue to make a living and 
do some things a little bit differently.
    And I also have been a former member of the Amalgamated 
Meatcutters and Retail Clerks Union. When I was 16 years old, I 
worked in a grocery store, and I didn't work in the meat 
department, but we did have interaction with that, and I 
appreciate the remarks, the comments about the need for 
protection of our young people.
    I was an administrative law judge with the Workers' 
Compensation Board in Georgia and so was challenged with 
balancing the needs of employers as well as injured workers and 
their families. But my concern is twofold. One, the safety 
issue that we've been talking about, and also the 
constitutional issue.
    With respect to the safety issue, I think I understand some 
of the concerns, but I think we need to find a way to be able 
to address the need for the Amish people to be able to carry on 
their faith and their tradition and their livelihood. And my 
son had the benefit of being in a woodworking class and a 
construction class when he was 16 years old, and they made 
picnic tables and other pieces of furniture after being trained 
and passing the safety tests. So I think it is possible for 
that sort of thing to take place. And I guess I'm saying all 
this to direct my question to you, Mr. Clark. What would you 
suggest we do in terms of legislation to allow the Amish people 
to preserve their faith and their tradition and their 
livelihood, since they can't avail themselves of what our 
society provides as a traditional means of learning or having 
their young people learn those skills?
    I mean, how can you help us with that so that we can 
achieve that balance that we need?
    Mr. Clark. Well, I think that the starting point is that 
the Amish in this country have not just survived, they have 
thrived, and they have done so because they are so adaptable in 
terms of finding ways of adapting their religion so it can 
conform to U.S. laws, and have been very successful in doing 
that in a variety of circumstances, some of which have been 
talked about this morning.
    In terms of the starting point for this particular 
legislation is to say first that you can't accomplish this 
objective of providing occupational opportunities for Amish 
youth by allowing them to work in this extremely dangerous 
industry. And where they are most certainly going to be 
subjected to an unacceptable risk of death and mutilation. We 
are not without experience here. In fact we have decades of 
experience, and we have experience from experts in the 
Department of Labor, and as has been pointed out, it's not 
whether it's the Democratic Department of Labor, it's not 
whether it's Republican Department of Labor, regardless of 
politics, this is extremely dangerous work.
    So what we have to do is start with it can't be this way, 
and then we have to look for other ways. And there are experts 
far more qualified than I in the Congress, in the Department of 
Labor, in the Department of Education, and in the Amish 
community, and particularly in the states of Pennsylvania and 
Indiana, that can address these issues once they conclude that 
they can't do it this way.
    You can't take the easy way out when it comes to protecting 
children, particularly when we're singling out one particular 
religious group that we are going to in fact deny protections 
that we give Catholics or Protestants or Baptists or Jewish 
children.
    So that's got to be the starting point. Now there are 
opportunities for education, occupational education, under 
Department of Labor rules. And they just simply cannot allow 
those exceptions to take place in a production-type atmosphere, 
which is what we have here. It has to be in the learning 
atmosphere, such as a vocational-type institution.
    Ms. Majette. May I just--thank you. Can you be more 
specific about what that environment might be that would still 
allow for the Amish people to maintain their faith? Is there 
something, some kind of program or vocational opportunity, that 
would allow for that? Because if there is, I think that would 
be important to hear about. If there is not, then I think 
obviously this is an issue that has been--we've tried to 
address it in the past, but I think there has to be more than 
just saying, well, there ought to be some other opportunity, 
there ought to be some other alternative. If there is one, 
please tell me about that.
    Mr. Clark. Well, I certainly--I think it would be 
presumptuous on my part to be, in fact, telling the Amish 
community how they should best approach this problem. I think 
the question is more possibly directed towards the current 
administration, the Department of Labor and the Department of 
Education, to solve this problem.
    I think we simply cannot take the easy way out, which is 
legislation that would subject the children to this high risk 
of injury. I think the bill itself, as we see, it only 
addresses woodworking machinery. It doesn't address the other 
machinery that exists in these facilities which is very 
dangerous.
    So the focus here is on this particular proposed solution, 
and we have to first address that and conclude that it will not 
work, and then direct these very powerful energies and bright 
people towards another solution.
    Ms. Majette. Thank you. I see my time is up.
    Chairman Norwood. Congressman Souder, do you want to finish 
it up with a comment?
    Mr. Souder. I spent a good chunk of my life, long before I 
was involved in politics, trying to work with the Amish 
community so they didn't move out of our area, so friends and 
relatives had alternatives, and there aren't just a whole lot, 
because in fact one of the problems even in woodworking, 
sewing, and other things that the Amish do for the tourist 
trade and other types of jobs, that are being driven out like 
many others, by the Chinese and others, because they're a 
labor-intensive religion. They're not a technology-intensive 
religion. And that means that they'll make some adaptations 
with technology, but not a lot.
    So that the professions that are available to them are few 
and far between, which is why woodworking has emerged. Now as 
other Amish craft items come, guess what else is one of our big 
problems which we're probably going to have to address? There 
are cheese companies now, one out of Cincinnati, that claims 
Amish cheese, and they don't even have the correct type of 
vehicle. They have nothing to do with the Amish, but they've 
stolen the Amish name, similar to what the Europeans are 
arguing with different things. And so when they do get 
successful in a category, somebody comes in, takes it, claims 
it's Amish this or that, which is starting to happen in 
woodworking, so one of the things we're trying to do is how do 
you develop a brand name for their products when they make 
product? It's not just a kids question, it's an adult question.
    But woodworking, the reason it has exploded in these last 
20 or 30 years, is it's a labor-intensive area where there's 
still a certain amount of skill to the quality that can be 
used, and you can do it with your hands, not just with 
technology, and that's the challenge with most of the other job 
alternatives.
    Ms. Majette. Is there a way that the youth can be trained 
outside of a commercial activity? I mean, I suspect as a 
practical matter that we have lots of people in our society who 
have their young children or younger children, teenagers, young 
teenagers, doing woodworking as a craft or as a social 
activity, as opposed to producing if for sale. I mean, I know 
that that is the case. Is there a way that we can do it?
    Mr. Souder. Excellent question, but it has a religious 
problem with the question. And that is, is part of the reason, 
even getting eighth grade was a compromise. And then having 
Amish schools having those teachers being trained outside. But 
the reason this bill protects Amish kids from being exploited 
by others by saying they have to say somebody in a similar 
faith, but it also is a religious separatist provision. And 
that is, is the Amish don't believe they should interact other 
than minimally with outside communities. And the longer their 
kids are exposed to those outside communities, the more likely 
they are to leave.
    You know, in my area, one of my friends from school who 
left in the eighth grade, we don't have tops in the buggies in 
my home town area. I said, do you get cold in the winter or do 
you kind of get used to it? He said we have colds all the time. 
It is not an easy lifestyle to maintain. And so if somebody 
says, you know, you can still go to heaven, but you know, you 
can have a car which is black, the temptation to leave. So the 
longer these kids are exposed to that by outsiders training it 
as opposed to their own parents and in their tradition, the 
more likelihood that the religion is going to be undermined.
    Still, a high percentage of the Amish leave. Because they 
have high birth rates, they maintain and slightly increase 
their numbers. But probably anywhere from 30 to 50 percent in 
an area will leave their faith. And this is their fighting 
chance to do that.
    So while it would sound reasonable to an outsider, I think 
safety training programs is a more viable type of thing, 
internally training some of them how they can go around to 
their businesses and what they need to do to follow the law, is 
a more viable option than actually putting them in outsider 
training programs.
    Ms. Majette. Well, and just so it's clear, Mr. Chairman, 
and I appreciate your allowing me to continue, but I am in no 
way supporting having children be engaged in dangerous 
activities, and I just question whether or not there is a way 
that we can create the balance that it appears needs to be 
created in this situation.
    Thank you.
    Chairman Norwood. Mr. Payne, would you like to question 
now?
    Mr. Payne. Thank you, Mr. Chairman. First of all, let me 
say that it's always interesting to be at a hearing. I was here 
about five years ago when I heard most of you at that time 
discuss this issue.
    And I think it is wonderful that a religious organization 
does want to preserve its religion. I think that's great and I 
think that I wish we had more, you know, more religion in 
general, and maybe we'd have less problems in our communities 
and in the world. And so I admire the Amish and the Mennonites, 
the Quakers.
    Many of them are very outstanding, Quakers in particular, 
in the fight for abolition of slavery back when that was the 
law of the land; the Quakers were very supportive of the 
Underground Railroad, and many of my ancestors were protected 
by coming up through the Underground Railroad and getting up to 
Canada and becoming free men and women by virtue of the 
Quakers. So we have a lot of respect for your religion and what 
your goals and objectives are.
    I worked in a lumber mill. My grandfather worked there, my 
father worked there, I worked there for about four years when I 
worked my way through college. It was Weyerhaeuser Lumber in 
Newark, a very large lumber mill. Lumber ships would come from 
Oregon, West Coast, through the Panama Canal to Newark port to 
unload timbers and lumber, and I'm sure the work that we did 
was a lot bigger than what you do. We used to handle timbers, 4 
x 12, 26, 28, 30. It used to be graded and select structure 
number one, two, and three, according to knots were, made the 
strength of the timber and different processes of Wolmanizing 
and creosoting to keep the termites from getting into the wood.
    So I am a lumber handler, and I think I did a good job at 
grading and so forth. But it's probably one of the--in the 
large lumber mills--and I worked in what they called the little 
mill. The big mill was even worse. It's probably one of the 
most dangerous places that I did work. Of course it was big, it 
was commercial. My father lost his thumb on the machine, which 
even though it was supposed to have protections, he lost his 
thumb. At that time, you know, you got a couple of hundred 
dollars and see how quickly you can get back to work.
    I worked there from '52 to '56, almost 50 years ago when I 
worked in the mills. I'm not a youngster. And I've seen people 
injured. I've seen--in a lumber mill you need forklifts. You 
have to really concentrate. Forklifts back up; even though 
there is usually a beeping sound so that people can be aware, 
we had injuries. As a matter of fact, after I worked there, I 
worked in a small business. It was family-owned. There were 
about 50 workers. In this particular mill, we did machinery on 
paper after the lumber was processed, we prepared paper forms, 
computer forms at that time. And one way that we were able to 
really reduce injuries from the forklift was that we hired a 
deaf forklift operator, and everyone knew therefore they had 
to--they couldn't yell and say watch out. They had to make sure 
that they knew where the forklift was backing up.
    So everybody--it was my idea since we hired Leon, who was a 
deaf person, we didn't have an injury with the forklift. Before 
that, we had one or two, because everybody looked at the 
forklift, and it was their responsibility for their safety, 
because they couldn't say ``I called out.''
    But anyway, the lumber industry is difficult. You can have 
all kind of accidents. You can have lumber falling. You can 
have forklifts, you have load, and backs can be injured even 
though you're not at the machine. Machinery sometimes has a 
shrill, and you have the occupational safety if you have over 
80 decibels, you need to have ear protection. It's hard for 
adults to be responsible enough to keep ear protection in. This 
is a big problem in many places where sound is over the 
decibels, and you'll find that loss of hearing happens.
    With young people, it's more difficult to discipline them, 
a 14-year-old. I mean, I was 18 to 22 when I worked there. But 
a 14-year-old is not as responsible, and even though, and I 
know you're very particular about don't get near the machine, a 
youngster is going to wander and a youngster is going to at 
sometime they're just more apt to not be as responsible as an 
adult. That's why we have even criminal justice that has 
different kind of penalties for activities if you're under 18 
or now under 16 than if you are an adult.
    So I think that it's a severe problem. I can understand 
what you're attempting to do. I wonder whether if there could 
be some other, non-threatening type of work that could be done, 
maybe in fabrics or something that doesn't deal--working in a 
lumber mill, when you're cutting wood, you have to have a 
pretty tough machine, period.
    I just don't think that 14-year-olds are responsible 
enough. I don't think that they are able to necessarily follow 
the rules, as has been indicated in opposition to the law. I 
would hate to see the law change, because then the question is, 
would either you, Congressman Pitts or Congressman Souder, and 
maybe it's a question, would you support permitting any child 
14 years old to work in a lumber mill? Let me just ask you 
that, either one of you.
    Mr. Pitts. The proposal that we have is very specific that 
it has to be a member of a religious sect or division thereof 
whose established teaching do not permit formal education 
beyond the eighth grade, and that the individual must be 
supervised by an adult relative or by an adult member of the 
same religious sect or division.
    It's tailored specifically for their problem. I do not 
oppose our youngsters being able to use power machinery in shop 
classes in our schools, which your kids and my kids or kids in 
vo-tech schools do. I would not prohibit them from doing that. 
But this doesn't even go that far. These kids aren't even 
allowed to assist or operate any power-driven woodworking 
machines.
    Mr. Souder. May I answer the question?
    Mr. Payne. Yeah, sure.
    Mr. Souder. I don't. But I do--I don't favor Amish kids 
working the machinery, either. The question is--and there is a 
difference between kind of a large lumber mill, if you mean 
should they work in an office of a lumber mill or the types of 
things like you said your family worked.
    In many cases, quite frankly, we're dealing with relatively 
small sized businesses where there isn't the separation that 
you would get in a large lumber mill. Therefore, I do believe 
that the safety considerations here, and I've met with the 
safety committee over in Elkhart County, Indiana, as they're 
trying to work for how to provide more safety to the kids on 
the farm and other places, because they realize they have 
obligations as parents and as a community.
    What I do believe however is, is that when you don't have 
other options that are apparent, that we have to be a little 
more flexible or we shut them down. Much like I am one of--
unlike many of my colleagues, I don't favor the repeal of 
affirmative action. I favor different things where different 
groups haven't had the opportunity or need a break. I believe 
there is a role of government to say this is a special case. 
And I believe these people are a special case, and that we are 
squeezing them in so many different ways that they're going to 
be gone.
    Mr. Payne. I certainly would hope that there could be 
something found that could fill the void of 14-year-olds. 
There's no question about that. I just still have a reservation 
about the safety. I think we ought to be thinking since it's 
five years ago we came up with the same outcome, a Democratic 
administration, even Democrats perhaps even controlling some of 
the Committees. It's not even a partisan issue. It's basically 
a constitutional issue. It's an issue of safety. It's an issue 
that the outcomes, and if you read the testimony from five 
years ago, it's the same arguments.
    I just think that we should look at other kinds of 
industries that really could serve the purpose. In my district 
at one time we had half a million people that lived in Newark. 
We had all kinds of jobs. When kids would come out of high 
school, they could drop out of high school, 16 they could get 
work, not in dangerous types, but there were jobs.
    We don't have any more jobs. Five hundred thousand people 
dropped down to about 215,000 because kids that I grew up with, 
their children had to leave Newark because there were no jobs. 
It's sad. We saw our city just crumble down and decay and young 
people move away. Where they went, I don't know. But they had 
to leave there, and that's unfortunate and we suffered from it, 
and we now have come up with some solutions of trying to have 
service type employment and other things like that to try to 
bring--to stop the trend out of our area.
    But I think that these are problems that we confront as we 
evolve as a nation and as a community, and I am certainly, like 
I said, very empathetic with the situation. However, I have to 
be truthful that I do think that we should not alter the 
Fourteenth and the First Amendment to accommodate this 
situation.
    Thank you, Mr. Chairman. I appreciate your giving me the 
extra time, and I'll yield back. Thank you.
    Chairman Norwood. Thank you, Mr. Payne. There will not be 
another round of questions. I've allowed everybody to run over 
the red light pretty good, and I think we've had a really good 
dialogue.
    I appreciate the Subcommittee's patience and intensity and 
questions, and I particularly appreciate the panel and the 
effort that you've made. I've just got to ask Mr. Burkholder 
one thing. How much--when we're talking about lifting boards, 
lifting lumber, what kind of weight are we talking about?
    Mr. Burkholder. Probably I would say 90 percent of it would 
probably be like 60 pounds and under. And occasionally you will 
get maybe a load of lumber that you saw a little thicker, like 
six quarter instead of four quarter. I would say 90 percent of 
our lumber is four quarter inch thick. And occasionally we get 
a six quarter, inch-and-a-half thick, and the boards vary from 
8 to 12 inches, 6 to 12, and 8 to 12 feet long.
    Chairman Norwood. Well, nothing about any of this is 
amusing, but it struck me a little funny when you were talking 
about the weight of that lumber. Where was the Labor Department 
when I was playing high school football at 14 years old and 
they wanted me to bench press 200 pounds all afternoon?
    Mr. Burkholder. Right. Right.
    Chairman Norwood. I needed them then, not now. Well, I do 
thank all of you. Everybody had to lift. Mr. Blank, would you 
like to make a comment?
    Mr. Blank. Yes, I would just like to make a comment. From 
what our concerns are, what we're seeing in some of our 
communities, we have some communities where the fathers have 
now been working out in non-Amish businesses for the second and 
third generation. And industry used to move into that area 
because of the Amish work ethic that they had. Now we're seeing 
second and third generation of boys that no longer have the 
training our fathers had. And the industry is telling me that 
they see no difference now between the non-Amish and the Amish 
youth.
    So that's the point we're trying to make here. We want to 
try to pass on to our next generation the work ethics that were 
handed down to us. And you made a comment about football. I 
don't mean to be derogative about your sports. I think it's 
honorable to give the youth something to do. However, we have 
in our neighborhood, our local high school just spent millions 
of dollars to put in a football stadium for the children under 
age 18. They expect those youth to be injured. They always have 
to have an ambulance, a doctor or a nurse on duty whenever they 
have a football game. And just last week, it was in the local 
newspaper where a young boy was injured. He broke his neck. He 
came very close to being paralyzed for the rest of his life 
because of playing football. It was determined he did make the 
tackle correct. However, it was just something that happened.
    Now we were talking about double standards here. I heard 
more than once in the Committee here they're concerned about 
safety for children. Where is the department on these football 
games?
    Chairman Norwood. Well, and I think probably I ought to 
make the record straight. I come from south Georgia and tobacco 
country, and when it wasn't football season, all summer I was 
flipping 150-pound tobacco sheafs, and nobody--I wanted the 
Labor Department to be there then really bad.
    Well, we appreciate this. I'd like for you to leave with 
some comfort, and I believe actually Congress is going to do 
the right thing again for the third time. Anything that I can 
help the youth of this country become more self-reliant, which 
is what you're trying to teach, is where we need to take 
America. We need to be more reliant on ourselves and learn that 
from our fathers and less reliant on the Federal Government.
    Thank you all for your time. The Committee is now 
adjourned.
    [Whereupon, at 12:08 p.m. the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

Statement of Herman Bontrager, Secretary/Treasurer, National Committee 
                      for Amish Religious Freedom

    Thank you for the opportunity to talk with you about the unique 
training needs of Amish youth and preservation of the Amish way of 
life. I am interested in testifying on this matter for the following 
reasons: a) I was raised in an Amish family and community in Northern 
Indiana and personally benefited from the vocational and values 
training that is an integral part of the Amish way of life; b) I am 
concerned that the United States government unequivocally respects and 
supports the freedom of conscience of all its citizens; and c) I work 
with the National Committee for Amish Religious Freedom.
    The National Committee for Amish Religious Freedom was organized to 
help the Amish regain their right to educate their own children. The 
Committee's most notable achievement was when the late constitutional 
attorney William Ball successfully the defended the Amish in Wisconsin 
vs. Yoder in the U.S. Supreme Court. Some of the issues related to 
apprenticeships of Amish youth in family and Amish businesses are the 
same as the religious liberty issues in Wisconsin vs. Yoder.
    1.  The Amish and Mennonites, stemming from the 1525 Anabaptist 
stream of the Protestant reformation, believe that it is essential to 
imitate the life and spirit of Jesus and to follow his teachings in all 
of life. The Amish community is where individuals live out their faith. 
Faith for them is not only a personal belief, it is a corporate 
practice nurtured by the community. In the community Amish find support 
from fellow followers of Christ, live in harmony and support of each 
other, and discern how to relate redemptively to the larger world. In 
the Amish way of life the sacred and the secular are inseparably 
intertwined.
    2.  Amish believe that children are a gift from God. Parents, 
supported by the Amish community of faith, take seriously their 
responsibility to prepare children for life. That formation consists of 
wisdom,(which includes character, honesty, humility, long-suffering, 
concern for the welfare of others), a work ethic, commitment to quality 
and the vocational skills that equip children for useful adult 
participation in the community, in the Amish way of life.
    3.  The Amish way of life is both a religious and social 
commitment, nurtured within the Amish community as individuals live out 
their faith in everyday life activities. It is important that work be 
performed in the context of a supportive ethnic community, in other 
words.-at home or as close to home as possible. Passing on the values 
of the Amish way of life and teaching the skills their children need 
for living in the community are a sacred trust assumed by Amish parents 
and the whole community. ``Only Amish persons can model and teach 
children to be Old Order Amish .... If the Amish cannot teach their own 
children Amish ways, their religious culture will be destroyed'' 
(Lindholm, 1993: 120-121).
    4.  The agrarian way of life, farming, is by far the best way to 
preserve the Amish way of life. Both parents are present, the family is 
together for work and play, children learn life skills by being with 
and observing their parents and other family members, children learn 
vocations by helping in the real work of their parents' livelihood (on 
the job learning, constantly supervised by someone who really cares for 
them), and children experience validation by doing work that 
contributes to the welfare of the family. Children are encouraged to be 
useful but are not pushed to perform tasks beyond their ability. 
Teaching by example is the preferred pedagogy of the Amish. Working 
together as a family forges a strong sense of identity, family cohesion 
and a sense of responsibility.
    5.  Occupational diversification has increased among the Amish as 
farming is no longer available for all. Unavailability of farmland, the 
high cost of investment to start farming, and competition with high 
tech, corporate farming have forced Amish to adopt other vocations. To 
preserve the family as the primary work unit and to retain control over 
the work environment the Amish develop small businesses so they do not 
need to work in large outside businesses. This emerging adaptation to 
keep parents and children working together makes it possible to keep 
their young people in a setting where they are supervised by family or 
others from the Amish community.
    6.  Whether it is on the farm or in the numerous other occupations 
they pursue through their own businesses and cottage industries, Amish 
vocational training is primarily accomplished through apprenticeships 
in the context of their extended families. They do not utilize high 
schools, vocational schools, technical schools or colleges for 
training. Apprenticeships adequately meet the training needs of Amish 
young people and help to keep them integrated in the Amish community 
during the crucial adolescent years. This system, which provides both 
technical training and values transmission in the context of the 
family, keeps children off the streets, out of prisons and makes them 
contributors to the welfare of the community at an early age. 
Apprenticeships are effective for this religious group and do not cost 
the state or federal governments anything.
    7.  Motivated by love for their God-given children and a commitment 
to equip them with practical life skills for living in the Amish 
community parents take very seriously the task of providing relevant 
training and formative experiences for their children. Learning life 
skills and developing a sense of responsibility are most effective when 
done in the context of real, meaningful work. It is important to the 
Amish to train children to do the best they can in their work and to do 
it safely. Thus, careful supervision and instruction are provided, 
preferably by the parents or another family member. Supervision by non-
family members is also dependable since it is the heartfelt desire of 
Amish people to retain their children in the community and to help them 
become productive contributors to the welfare of the Amish community.
    8.  I urge you to enact legislation to amend the Fair Labor 
Standards Act in a manner that will make it possible for the Amish and 
other religious groups such as Old Order Mennonites Brethren to 
maintain their time-tested practice of apprenticeship. A labor code 
that makes it possible for the Old Order religious community to provide 
for vocational learning in the context of the ethnic community and 
family will help to preserve the Old Order way of life. The Old Order 
way of life is first and foremost a matter of conscience, based on 
religious faith. Apprenticeships, one of the few acceptable means 
available to Amish and other Old Order groups to bring up their 
children in the heart of the community, are, in effect, a religious 
practice for them. Apprenticeships are the means for holistic formation 
of Old Order youth, they are not inappropriate child labor practices 
that exploit children in large factories to serve the profit motives of 
outside investors. It is of compelling interest to the state to assure 
that there is adequate provision for these religious groups, the Amish 
and other Old Orders, to train and bring up their children according to 
the dictates of their conscience and their faith.
    9.  The relief sought through an amendment to the Fair Labor 
Standards Act is to provide flexibility that permits Amish and other 
Old Order youth ages 14 to 18 years to learn skills and values by 
working in what are the typical and common businesses operated by Amish 
and other Old Order groups. It is not to compromise their safety. 
Supervision by adult family members or other adults from the Amish 
community and certain limitations on activities these youth may perform 
are acceptable requirements.
    10.  Anabaptist faith understands that all aspects of life, whether 
spiritual or material, whether worship or work, are to be lived humbly 
under the Lordship of Christ. Religious faith is the basis for the 
Amish way of life. The U.S. constitution assures liberty for all 
citizens to believe and practice their faith as conscience dictates. 
The nation's laws need to uphold that religious liberty. Amish 
apprenticeships do not present any threat to public health and safety 
nor to the welfare of any segment of society.
    Wisconsin vs. Yoder set a strong precedent in support of Amish 
providing education and training for their children in ways that 
preserve their community.
    Thank you for your consideration in this matter that is vital to 
the interests of the Amish and other religious communities.

Sources

Hostetler, John A., 1980 Amish Society. Third edition. Baltimore and 
        London: The Johns Hopkins University Press.
Kraybill, Donald B. (ed.), 1993, The Amish and the State. Baltimore and 
        London: The Johns Hopkins University Press.
Kraybill, Donald B., 1989, The Riddle of Amish Culture. Baltimore and 
        London: The Johns Hopkins University Press.
Lindholm, William C., 1993, ``The National Committee for Amish 
        Religious Freedom.'' Pp. 109-123 in Donald B. Kraybill (ed.). 
        The Amish and the State. Baltimore and London: The Johns 
        Hopkins University Press.
Nolt, Steven M., 1992, A History of the Amish. Intercourse, 
        Pennsylvania: Good Books.

                                 <all>

</pre></body></html>
